<html>
<title> - GAO'S DUPLICATION REPORT AT FIVE YEARS: RECOMMENDATIONS REMAIN UNADDRESSED</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



    GAO'S DUPLICATION REPORT AT FIVE YEARS: RECOMMENDATIONS REMAIN 
                              UNADDRESSED

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2015

                               __________

                           Serial No. 114-30

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-420 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
                          Katy Rother, Counsel
                    Sharon Casey, Deputy Chief Clerk
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 14, 2015...................................     1

                               WITNESSES

The Hon. Gene L. Dodaro, Comptroller General of the United 
  States, U.S. Government Accountability Office
    Oral Statement...............................................     1
    Written Statement............................................     6
The Hon. Beth Cobert, Deputy Director for Management, The Office 
  of Management and Budget
    Oral Statement...............................................    40
    Written Statement............................................    42

                                APPENDIX

Chairman Chaffetz Opening Statement..............................    84
2015-04-21 GAO 4-14 Hearing Responses............................    86
RESPONSE Cobert-OMB-Blum QFRs....................................    88

 
    GAO'S DUPLICATION REPORT AT FIVE YEARS: RECOMMENDATIONS REMAIN 
                              UNADDRESSED

                              ----------                              


                        Tuesday, April 14, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 2:00 p.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Massie, Meadows, Mulvaney, Buck, Walker, Blum, 
Hice, Russell, Carter, Grothman, Palmer, Cummings, Maloney, 
Norton, Connolly, Duckworth, Kelly, Lawrence, Lieu, Plaskett, 
DeSaulnier, and Grisham.
    Chairman Chaffetz. Committee on Oversight and Government 
Reform will come to order. Without objection, the Chair is 
authorized to declare a recess at any time.
    This afternoon, the United States Government--or sorry--
this morning, the United States Government Accountability 
Office released its annual report on duplicative Federal 
programs. It has been the case for the past 5 years there's a 
vast opportunity for the Federal Government to save hard-earned 
taxpayer dollars.
    One day before Americans have to on the--one day before 
Americans have to pay their taxes, the GAO report identifies 24 
new areas where Federal Government agencies are wasting 
resources. To help remedy this waste and improve the 
effectiveness of our government, the report recommends more 
than 66 actions to save money. Some examples from this year's 
report include eight Federal agencies administer more than 100 
programs to support individuals with serious mental illness. 
The GAO also identifies 42 Federal, State, and local 
nonemergency medical transportation programs that currently 
lack coordination, leading to poor outcomes.
    Further, the GAO noted that the National Oceanic and 
Atmospheric Administration, often referred to as NOAA, 
maintains 21 separate systems to monitor sea surface 
temperature and 14 to measure just one--just ocean surface wind 
speeds. Even NOAA has admitted this level of redundancy is 
unnecessary.
    Finally, the report also draws--also draws new attention to 
the broken down FOIA process at the Department of Homeland 
Security. Today, Department of Homeland Security is responsible 
for more than half of all reported backlog FOIA requests. This 
is completely unacceptable.
    All told, in the first 5 years of the report, GAO has 
identified more than 200 areas with wasted Federal resources. 
As a result, GAO has recommended more than 500 actions to save 
money and approve efficiency. By implementing about a third of 
these, GAO recommendations in prior years, the government 
managed to save roughly $20 billion, which is a start, but more 
needs to be done.
    Addressing the remaining recommendations has the potential 
to save American taxpayers $80 billion by the year 2023. Over 
and again, the GAO's duplication reports have shown how 
precious dollars are wasted when Federal agencies fail to work 
together. GAO has specifically identified dozens of areas where 
increased guidance, oversight, and coordination from OMB would 
create greater efficiency. These would also reduce costs to the 
taxpayers, including the way for the Federal Government to 
acquire needed goods and services.
    Yet OMB to date has only fully addressed about a third of 
GAO's recommended actions. It has to do better to fully justify 
the taxpayers' trust in its mission. With Americans projected 
to pay the government $1.5 trillion in individual income taxes, 
we must ensure greater return on taxpayer investment by 
reducing inefficiencies and redundancies.
    I want to thank the GAO for, once again, providing Congress 
and the executive branch with a road map to achieve the needed 
savings. There are literally thousands of good men and women 
who work tirelessly through the course of a year and beyond, to 
develop these reports, and we very much appreciate it. Look 
forward to hearing from the witnesses on how the government can 
make greater progress in achieving a more efficient, effective, 
and accountable government. That's what we're all here to do, 
and this is a good opportunity for both sides of the aisle, the 
administration, the GAO, to all to come together and discuss 
these topics and figure out how we can make more of the 
precious Federal dollars.
    Chairman Chaffetz. I want to let members know that we 
will--I will hold the record open for 5 legislative days for 
any members who would like to submit a written statement.
    We will now recognize our panel of witnesses. I am pleased 
to welcome the Honorable Gene Dodaro, Comptroller General of 
the United States Government Accountability Office. Mr. Dodaro 
is accompanied by a panel of staff from the GAO behind him 
whose expertise may be needed during the questioning.
    We also have the Honorable Beth Cobert, deputy director for 
management at the Office of Management and Budget. Did I 
pronounce it properly?
    Ms. Cobert. Yes.
    Chairman Chaffetz. Okay. Good.
    We welcome you. Pursuant to committee rules, all witnesses 
will be sworn before they testify. We will also swear in those 
accompanying Mr. Dodaro who may be offering testimony. And so 
if you all would rise.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
by the truth?
    Thank you. Let the record reflect that all members--all 
people who raised their hand answered in the affirmative.
    And prior to having our witnesses testify, we're going to 
now recognize the ranking member, Mr. Cummings, from Maryland 
for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman, for 
holding what has become a critical annual hearing for our 
committee and for making sure that GAO's report gets the 
attention it warrants.
    Today's hearing will focus on GAO's fifth annual report on 
duplicative programs and opportunities for cost savings. It 
will allow us to zero in on areas where we can work together to 
cut waste and save money. That is what this committee is all 
about and that is what our constituents expect of us.
    Unfortunately, today's report from GAO indicates that 
Congress has been doing far worse than the executive branch in 
implementing recommendations to eliminate duplication and to 
promote the efficiency and effectiveness of the Federal 
Government. According to GAO's report, the executive branch has 
fully or partially completed 86 percent of GAO's 
recommendations, while Congress is struggling around 45 
percent. Clearly Congress must do a better job of focusing on 
its own actions, rather than trying to blame everything on the 
executive branch. Specifically, GAO has made 369 
recommendations for the executive branch and 317 have now been 
fully or partially completed. In contrast, GAO has made 69 
recommendations for Congress, but only 31 of those have been 
fully or partially completed.
    This year's report from GAO highlights some areas where 
Congress could legislate to eliminate waste and duplication. 
For example, GAO recommended that Congress consider permanently 
rescinding the entire $1.6 billion balance of U.S. Enrichment 
Corporation fund. According to GAO, the Congress authorized 
this revolving fund in the U.S. Treasury for environmental 
cleanup costs associated with disposing of depleted uranium at 
two specific facilities and for expenses related to the fund's 
privatization. GAO has determined that both of the funds 
purposes have been completed, but only Congress can permanently 
rescind the entire balance of the fund.
    Overall, it is clear that significant progress has been 
made in implementing GAO's recommendations over the past 4 
years. GAO made a total of about 440 recommendations between 
2011 and 2014, and about 348 of these have been fully or 
partially addressed by the executive branch and Congress. GAO 
estimates that these efforts have resulted in about $20 billion 
in financial benefits to date, with another $80 billion in 
savings projected through 2023. We must recognize these 
accomplishments and shine a light on them. We want them to 
become the model that we'll strive to achieve.
    And at the same time, it is also clear that more work 
simply needs to be done. For example, GAO identified potential 
duplication in laboratory inspections. GAO highlighted one 
laboratory that had been inspected eight times by the 
Environmental Protection Agency and the Drug and Food 
Administration over an 8-year span. Of course these facilities 
must be rigorously inspected. But if relevant information had 
been shared between the two agencies, they might have reduced 
duplication and been able to direct attention to other needed 
inspections. Better leveraging of resources and potentially 
increasing the number of facilities inspected serves not only 
the best interest of the agencies, but of the taxpayers as 
well.
    To conclude, I want to thank both of our witnesses, Mr. 
Dodaro and Ms. Cobert, for being here today. Mr. Dodaro, you 
and your talented staff, are providing a critical service to 
the Congress and the American people by issuing this report. I 
also appreciate the work that you and your colleagues at GAO do 
every day to increase the effectiveness and efficiency of the 
Federal Government and to help ensure that our tax dollars are 
spent wisely.
    And with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. Thank the gentleman.
    Chairman Chaffetz. I will now recognize Mr. Dodaro for 5 
minutes.


                       WITNESS STATEMENTS

           STATEMENT OF THE HONORABLE GENE L. DODARO

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good 
afternoon to you. Ranking Member Congressman Cummings, members 
of the committee, I'm very pleased to be here today to discuss 
GAO's 2015 report.
    We identified 24 new areas with 66 recommendations. These 
include a recommendation to the Congress to create a formal 
coordinating group to focus on the oversight of consumer 
protection issues. There are 20 different agencies involved in 
this effort at least. There's fragmentation, overlap of 
responsibilities, and greater efficiencies that can be achieved 
as well as better protection to the public.
    We also have recommendations for greater coordination among 
the 42 programs and six agencies that provide nonemergency 
medical transportation. Here we're concerned that not enough 
cooperation has been gained yet from the Medicaid and VA 
programs, which are big players. And there's not a cost sharing 
agreement in place. The council coordinating this activity 
hasn't met since 2008. This is a big issue, particularly with 
the aging of our population and the need for these nonemergency 
medical services among the aged, the disabled, and those 
without the means to provide their own transportation for 
needed health care.
    We also identified a component of provider within the DOD 
healthcare system that was set up originally in 1982. It's now 
being duplicated by the TRICARE program, which was established 
in the 1990s, and we recommend that that component can be 
eliminated, thus saving millions of dollars with a careful 
transition to ensure that nobody has interruption in services 
that are provided.
    We also recommend reexamination of the Strategic Petroleum 
Reserve. With U.S. production now at record levels, and 
reserves growing both in the Strategic Petroleum Reserve and 
the--and private sector reserves, we now hold much more than we 
have to to meet international requirements in the reserve. This 
could free up potentially, based on the reexamination, oil that 
could be sold to reap billions of dollars that could be used 
for other government priorities and also reduce the operating 
costs of the Strategic Petroleum Reserve, which is aging and in 
need of further repair.
    We also identified areas that were established of 11 
hospitals that provided cancer treatment in the 1980s when most 
cancer treatment was in-patient concern. Now, more hospitals 
can provide it as outpatient concerns. And if those hospitals 
were treated the same way other hospitals that are treating 
cancer payments now and at a level playing field, the Federal 
Government could save $500 million a year in Medicare spending, 
healthcare spending. So these are a few of the examples.
    As has been mentioned, in the past 4 years, we've had over 
440 recommendations. Thirty seven percent have been fully 
implemented. Thirty nine percent partially. Twenty percent not 
at all. The amount of money that's been saved so far has been 
$20 billion in implementing our recommendations, with another 
$80 billion in the works that should be achieved in the coming 
years. But there's plenty of money left on the table here in 
areas that can produce additional billion dollars in savings 
and efficiencies. We've grouped them into a number of 
categories. You could be more aggressive on strategic sourcing, 
the leverage, the government's buying power. Right now, OMB is 
moving on this as Beth will talk about, but we need to be more 
aggressive in setting targets and to achieve the savings that 
are necessary.
    In February, I was before this committee talking about IT 
operations and the acquisitions. We put it on our high-risk 
list across government. Their concerted efforts could save 
millions of dollars, if not billions of dollars in waste and 
inefficiencies in IT operations. We've had many recommendations 
to streamline activities at the Defense Department to reduce 
overhead, help control their healthcare costs, reduce the cost 
of weapon systems. We have recommendations to reform Medicare 
and Medicaid payment processes and oversight processes to 
reduce healthcare spending, which is much needed at this point 
in time. We've got recommendations to also increase tax 
revenues and to rationalize some benefit programs where there's 
some overlapping and duplication in benefit programs.
    So I appreciate the opportunity to be here today and 
discuss these areas in further detail during the questions-and-
answer period when it's appropriate. Mr. Chairman, thank you 
very much.
    Chairman Chaffetz. Thank you. We appreciate that.
    [Prepared statement of Mr. Dodaro follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Chaffetz. I will now recognize Ms. Cobert for 5 
minutes.

             STATEMENT OF THE HONORABLE BETH COBERT

    Ms. Cobert. Thank you, Chairman Chaffetz, Ranking Member 
Cummings, and distinguished members of the committee for 
inviting me to discuss the Federal Government's efforts to 
reduce fragmentation, overlap, and duplication across programs. 
I appreciate the opportunity to discuss this important area 
because it is critical that the administration and Congress 
work together to advance reforms that help sustain a high 
performing, cost effective government.
    GAO is a key partner in OMB's efforts to create more 
efficiencies and cost savings. GAO's 2015 report provides 
helpful updates on actions the administration and Congress have 
taken on recommendations from previous reports and offers new 
recommendations. I also particularly appreciate this 
opportunity to testify along with Comptroller Gene Dodaro. 
Whether it is a GAO high risk list, this report, or other 
specific issues, Gene and I are regularly working together 
towards the common goal of creating positive outcomes for 
citizens and thoughtful and careful spending of taxpayer 
dollars.
    GAO's report recognizes some of the overall progress the 
administration has made since the initial areas of 
fragmentation, overlap, and duplication were identified in 
2011. The executive branch and Congress together, have 
significantly engaged in 337 of the 440 broad areas GAO has 
identified over the past 4 years. Within these broad areas, the 
executive branch has made progress on 79 percent of GAO's 
recommendations, with 30 percent fully addressed and 49 percent 
partially addressed.
    The President's management agenda provides a strong 
foundation for tackling duplication, fragmentation, and 
overlap. The President's management agenda is built on four 
core pillars; effectiveness, efficiency, economic growth, and 
people in culture. By focusing on how we can simplify processes 
to make services better, finding ways to share best practices 
and information more effectively across the Federal Government 
and with the public and leveraging the talents of America's 
Federal workforce, the administration is driving an agenda that 
enables the government to operate more efficiently in the 21st 
Century.
    Addressing the government's critical priorities requires 
focus, discipline, and collaboration, often across 
organizational boundaries. Whether it is in corporate, 
nonprofit or government entities, in my experience, it boils 
down to prioritizing, focus, and working together.
    One key way that OMB helps support this prioritization and 
collaboration is through the agency priority goal and cross-
agency priority goals established as part of the Government 
Performance and Results Modernization Act, GPRA.
    The administration is pleased to update you on progress in 
several specific areas related to GAO's extensive 
recommendations as well as the President's management agenda. 
I'd like to share a few specific examples. Saving on real 
property costs. Through the administration's Freeze the 
Footprint Policy, agencies achieved a 21.4 million square foot 
reduction in office and warehouse space between Fiscal year 
2012 and Fiscal Year 2014. And in Fiscal Year 2014 alone, the 
government disposed of 7,350 buildings, 47 million square feet 
of space and eliminated $17 million of annual operation and 
maintenance costs as a result of Freeze the Footprint. We 
recently issued the national strategy for real property, which 
builds on these efforts and requires agencies to reduce their 
real property footprint going forward.
    Acquisition. Through strategic sourcing efforts, the 
administration has generated $417 million in savings and 
reduced contract duplication by up to 40 percent in targeted 
areas, but we know we need and can do more. We're building on 
the success through our category management efforts, an 
approach that allows us to further reduce duplicative 
acquisition practices and better leverage government-wide 
buying power and expertise.
    Smarter IT delivery. Through the data-driven PortfolioStat 
process, the government has achieved more than $2.3 billion in 
savings in the past 3 years around spending on IT.
    Eliminating homelessness. Through strong collaborative work 
across agencies through the U.S. Interagency Council on 
Homelessness and community partnerships, the administration has 
made significant progress toward the President's ambitious goal 
of ending homelessness, particularly among veterans. Veterans 
homelessness is down 33 percent, and people experiencing 
chronic homelessness on a single night is down 21 percent with 
great cooperation across agencies on this effort. The Fiscal 
year 2016 budget also continues to propose reforms and target 
duplicative programs for reduction or elimination. In the 
President's first six budgets, the administration identified on 
average more than 150 cuts, consolidations, and savings, 
averaging more than $23 billion each year.
    We are also working to oversee the implementation of two 
new key pieces of legislations that will further strengthen 
efforts to improve efficiency and save taxpayer resources. The 
Digital Accountability and Transparency Act, the DATA Act; and 
the Federal Information Technology Reform Act, FITARA.
    Our efforts and success to date showed that we can improve 
the way government works and provide the American people with 
an efficient, effective, and high performing government. We 
look forward to continuing to work with Congress and the GAO 
and other stakeholders to identify additional opportunities to 
create a government that makes a significant tangible 
difference in the economy and the lives of the American people 
and spends its dollars wisely.
    I thank the committee for holding this hearing and for your 
commitment to improving Federal performance. I'd be pleased to 
answer any questions you may have.
    Chairman Chaffetz. Thank you.
    [Prepared statement of Ms. Cobert follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. We will now recognize the gentleman from 
Tennessee, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Well, thank you. Thank you very much, Mr. 
Chairman, and thank you for holding this what I think is a 
very, very important hearing. And I first want to join the 
ranking member, Mr. Cummings, in complimenting the GAO for the 
$20 billion in savings thus far and the what I see as the 
potential of $80 billion in the years ahead.
    I can--one area that's of great interest to me for many 
years has been this disposal of excess Federal property. The 
chairman and I both have worked on that for several years. And 
I notice that the OMB says they have a national strategy in 
place, but the GAO says or does not agree.
    Can you explain why the GAO does not agree with the 
approach that OMB is taking on this thus far, Mr. Dodaro? And 
then we'll have Ms. Cobert respond.
    Mr. Dodaro. Yes. The information in our report about the 
status of actions taken by agencies was as of March 6 last 
month. OMB's strategy just came out at the end of March, March 
25. So we believe that it's responsive to our recommendation, 
in part, and are pleased that the national strategy has how 
been issued. It needs--it's a document that's going to require 
some additional development and support on the details to 
implement it, but it addresses some of our concerns so far. So 
we're pleased with the document, but it's a timing difference, 
Mr. Congressman.
    Mr. Duncan. Okay. Well, then, another area that we held a 
hearing on last year was this $80 billion in annual purchases 
of new technology. And I'm wondering if you think that's an 
area where there are potentially some pretty big savings in 
that regard because I know that they say that all the computers 
are obsolete the day they're taken out of the box. The 
technology is moving so fast, yet much of that technology--and 
it seems that any time a government agency runs--has cost 
overruns or has real problems, they say their technology is out 
of date. And I'm wondering what's being done, if you feel 
enough is being done to take advantage of potential savings 
there. Because a lot of that technology, even though it may not 
be brand new, is still very useable.
    Mr. Dodaro. Yes. No, I do not think enough is being done. I 
think there have been some steps made. You know, I was so 
concerned about this area that I added it to our high-risk list 
across the Federal Government.
    There are really a couple of dimensions. One, is more money 
is going in to continue to support the legacy systems, the old 
systems from the past, and that's a trend that's different than 
what's happening in other parts of the economy, and we think 
more could be done there to review ongoing spending operations 
to see if there can be greater efficiencies and drive down the 
cost.
    Secondly, OMB has moved forward on the data center 
consolidations, looking at the portfolio for duplicative 
investments, doing these tech stat assessments on troubled 
projects that are high risk. But much more needs to be done to 
be consistently implemented across government. There are huge 
opportunities here to get better service at less cost.
    Mr. Duncan. Also, I notice that--I know that all of us 
favor a strong national defense, but your report says that the 
Department of Defense may be underestimating some of the total 
resources dedicated to supporting the headquarters staff. And 
I'm wondering if you could give us a little more specific 
information on that.
    And then, also, I've read over the last several months that 
even many former chiefs of staff and former secretaries--the 
last, I think, three secretaries of defense have said that 
military personnel costs are spiralling out of control and 
we're not going to be able to buy some of the necessary weapons 
and equipment that we need if something is not done. What do 
you have to say in those areas?
    Mr. Dodaro. Yeah. Definitely military costs are something 
we point out as a big cost driver, along with healthcare costs. 
Now, healthcare costs are on an escalating course just as they 
are in other sectors of the economy.
    Mr. Duncan. Right.
    Mr. Dodaro. With regard to the headquarters operations, 
I'll ask Cathy Berrick, who is our expert in defense. But 
basically, Congressman, they're only looking at certain aspects 
of their headquarters operations when we believe they ought to 
be looking more broadly across the department. And as a result, 
they're not seeing good opportunities, as many opportunities as 
we believe need to be reviewed. And they need to do it on a 
regular basis.
    Cathy.
    Ms. Berrick. Sure. There's really two issues with the 
growth and management headquarters of the Department of 
Defense. The first issue is there has been significant growth 
and DOD hasn't been doing a periodic reevaluation of resources 
dedicated to headquarters. So, for example, we recently issued 
a report looking at the three functional combatant commands. 
There's about 10,500 civilian and military personnel dedicated 
to headquarters at these three commands. That's grown over 50 
percent in the last 10 years. And that is a similar trend that 
we've seen across the geographic combatant commands, OSD to 
joint staff, and other organizations. So we think that DOD 
needs to do a periodic reassessment of resources devoted to 
those entities.
    The second issue is DOD is pursuing cuts within its 
management headquarters functions at the Department. The 
Secretary of Defense directed a 20 percent cut. The problem is, 
as the comptroller general mentioned, it's focused on a very 
small percentage of the headquarters within DOD. So, for 
example, of the functional combatant commands that I reference, 
there's 10,500 personnel--headquarters personnel dedicated. 
These cuts will only apply to less than a quarter of those 
personnel. So we've recommended that DOD look more broadly at 
all of its headquarters personnel versus just this small--
relatively small portion called management headquarters.
    Mr. Duncan. Well, thank you. Thank you very much. I will 
say this, we need more fiscal conservatives at the Pentagon, I 
can tell you. And I appreciate the job you-all are doing in 
that regard.
    Chairman Chaffetz. Thank the gentleman.
    Will now recognize the gentlewoman from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    I note that tomorrow is so-called Tax Day, April 15. And 
that--and I'm going to really be interested in next year's 
report because it looks like the Congress has shot itself in 
the foot and added to the deficit by what it's done to the IRS. 
I've never seen anything like it.
    The reports all over the country are of people waiting in 
line to get audits and other questions answered. As of April 
15, you could get no information in. Before that, you could get 
very little information. And if so you had to go to the tax 
advocate. This is a recipe for inefficiency in an agency that 
we depend upon if we want to reduce our deficit. Now, of 
course, much of that is going to come out in some way, I 
suspect, Mr. Dodaro, in your--in your report next year. But 
this so-called tax gap is, I believe, already showing it.
    The most recent figures I've been able to get about the tax 
gap, that's the--the difference between what people owe in 
taxes and what they actually report, the figure I get is close 
to $400 billion or $385 billion. Does that sound about right?
    Mr. Dodaro. That's correct.
    Ms. Norton. Look what that would mean for the deficit if we 
could just get those funds.
    Now, a lot of this is due not just to people avoiding 
taxes, but underreporting. So they need to talk to somebody 
and, in order to talk to somebody, there needs to be an audit. 
You can't just say ``Give us the money.''
    By the way, Mr. Dodaro, I read that the IRS is saying up 
front now, in light of what looks like a 17 percent cut, 
that's--that's the figure that sticks in my mind. That's way 
times more during the sequester than any other agency. But the 
IRS is saying, unless it amounts to a million dollars, sorry, 
we can't even look at your--look at auditing to look to see 
whether you're underreporting. In other words, home free, 
they're saying up front because of this unusual cut that shoots 
ourselves in the foot, the gut, you name it.
    Now, if one looks at your report today, we find talk of 
backlogs and audits. And here I am looking at the years 2013 
and 2014, which coincided with these cuts. Isn't that correct?
    Mr. Dodaro. I'd have to----
    Ms. Norton. When there's been backlog--backlog for 
taxpayers needing audits in order for the IRS to collect what 
is due to the people of the United States.
    Mr. Dodaro. I'm going to ask Jay McTigue, who heads up our 
IRS work, to respond.
    Mr. McTigue. Yes, Congressman. Over the last several years, 
since about 2010, the audit rate for individuals is down about 
25 percent, and the audit rate for businesses larger than $10 
million in assets has also declined, in that case, about 30 
percent.
    Ms. Norton. Heavens, are we ever going to be able to 
collect that money? Is there a statute of limitations? I mean, 
if it's down by that because you don't have the staff and you 
obviously don't--they obviously don't have the staff, is that 
money gone for the taxpayers?
    Mr. McTigue. Generally, the IRS has 3 years from the time a 
taxpayer files his or her tax return to complete an audit.
    Ms. Norton. With these backlogs, I can't imagine that some 
people just aren't off scot free just by virtue of the statute 
of limitations. I think we have to note that.
    The IRS budget has been reduced by $1.2 billion over 5 
years. That's an amount that's inconceivable. Isn't that 
approximately correct?
    Mr. McTigue. Yes, Congressman.
    Ms. Norton. With that kind of reduction--and you've got to 
decide what you've got to do. They've already decided they 
can't take care of you and me because we're too far down on the 
totem pole. What in the world can they do?
    Mr. Dodaro. Well, in that respect, we have made a number of 
recommendations on how our IRS could more efficiently use the 
resources that they have. For example, to get return on 
investment information, we identified, if they shifted $124 
million from field exams to correspondence audits, they could 
increase revenue by a billion dollars during that period of 
time.
    There's also things that Congress can do to help the IRS. 
For example, we've recommended that paid tax preparers have 
some certification requirements and that the Congress give IRS 
the authority to do that. Most of the tax returns are prepared 
by paid tax preparers. The last time we looked at this, we did 
undercover operations, only two of the 19 paid tax preparers 
gave the right answers to the questions we asked.
    Ms. Norton. So Congress should do what with respect to 
that?
    Mr. Dodaro. Give IRS the authority to regulate paid tax 
preparers.
    Ms. Norton. I see.
    Mr. Dodaro. And also----
    Ms. Norton. The way, by the way, they regulate VITA sites, 
volunteer--the VITA sites, all of us have it in our 
jurisdictions where volunteers have to be certified tax 
preparers, those are complete volunteers, but they've been 
certified by the IRS. They serve the--they save the American 
people billions upon billions, and they don't have to pay for 
it.
    Mr. Dodaro. And the biggest thing Congress could do is 
simplify the Tax Code.
    Ms. Norton. You're right on that, Mr. Dodaro. Thank you.
    Chairman Chaffetz. I thank the gentlewoman.
    I'll now recognize myself for 5 minutes.
    Ms. Cobert, I appreciate you being here. One of the things 
you mentioned was the--following up on what Jimmy Duncan from 
Tennessee was talking about, is the underutilized property. It 
is something he has worked on, I have worked on, Mr. Mica has 
worked on. We have literally tens of thousands of buildings 
that are underutilized at this point.
    Freeze the footprint. One of the things, I guess, I would 
want you to consider or, at least, think through, when you talk 
about acquisitions, one of the things that drives us a bit nuts 
out West is the acquisition budget within the Department of 
Interior. We have a 10-plus-billion-dollar backlog with the 
national parks and monuments and whatnot, I mean, the gems of 
this country, and yet we've got tens of--you know, more than a 
$10 billion backlog but at the same time that we're acquiring 
more property.
    Have you given any consideration to stopping or slowing 
down or freezing the footprint in terms of acquisitions within 
the Department of Interior as well?
    Ms. Cobert. Thank you for your question, Congressman.
    As we think about real estate and the portfolio as a whole, 
what we've tried to do is to take a very data driven approach 
to understand our starting point, where we're going, and what 
the needs are. What are buildings used for today, and do they 
still fulfill the purpose that they had? What are the new 
purposes for which real estate is needed and important to do 
that way, so to try and get that balance right and to use that 
data in better decisionmaking across.
    Chairman Chaffetz. And I guess what I don't see in your 
consideration--and Mr. Dodaro, I don't know if you've looked at 
this--but the acquisition budget is roughly $500 million to 
acquire additional properties within the Department of 
Interior, and yet we still have a $10 billion backlog. And what 
I don't see is the same Freeze the Footprint approach 
prevailing within the Department of Interior. Am I wrong on 
that?
    Ms. Cobert. The acquisition of properties for different 
purposes, you have to go back and say what are we acquiring 
those properties for? I don't have the specifics the programs 
on the Department of Interior, but I do know we are trying to 
think about what buildings and what properties we have for 
which purpose and can we use those or reuse those or find a way 
to get rid of them.
    Chairman Chaffetz. Now, a lot of these aren't actual 
buildings. A lot of them are lands. Mr. Dodaro.
    Mr. Dodaro. Yeah. Mr. Gaffigan is our expert in this area.
    Mr. Gaffigan. Mr. Chairman, the--we have some ongoing work. 
We haven't been looking at the park service in a long time. 
There are 407 different park units throughout the country 
ranging from Yosemite to small little sites like the Rosie the 
Riveter historic sites.
    Chairman Chaffetz. You can go ahead and mention Arches, 
which happens to be in Utah's 3rd Congressional District, one 
of the most beautiful places you can visit.
    Mr. Gaffigan. I didn't want to be--I didn't want to be too 
obvious.
    Chairman Chaffetz. Go ahead, you have my full permission.
    Mr. Gaffigan. Yeah. There----
    Ms. Cobert. It's beautiful.
    Mr. Gaffigan. Yeah and, you know, they're struggling to 
deal with what they have right now. And this is our first look 
at it in a while. Because the only sources of revenue come from 
potential park fees, concessions. And--and they're really 
struggling to deal with what they have right now. So we have 
some ongoing work looking at that issue right now.
    Chairman Chaffetz. Okay. And, I guess, on behalf of those 
out West, this is of keen concern because the acquisitions 
continue. I think you've highlighted the problem. I just worry 
that--that you have not yet also included the Department of 
Interior, because these aren't--these are typically old 
buildings and pieces of property and other acquisitions. They 
all sound great. But then the problem is that the Grand Canyon 
and at Arches and at Canyonlands in places all across, we've 
got backlog that doesn't get taken care of. And, right now, 
that's to the tune of 10-plus-billion-dollars, and you don't 
have things like camp sites and waste removal and very basic 
things that people, as they get out and enjoy the outdoors. 
So--and to the GAO, we would appreciate it if you can continue 
to look at that as well.
    I've got a host of other ones, but we've got other members 
here. I'm going to go ahead and yield back, but thank you for 
your consideration on that.
    Will now recognize Ms. Kelly from Illinois, I believe, is 
next on the list. And we'll recognize her for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. Dodaro, one issue identified in today's GAO report as 
an area of potential cost savings is the management of 
information technology investments. This is particularly--
particularly an important area to invest in, giving our 
committee's growing focus on cybersecurity and, to me, as the 
ranking member on the IT subcommittee. Today's GAO report 
estimates that, at least, $79 billion will be spent on 
information technology by the Federal Government in fiscal year 
2015. Is that accurate?
    Mr. Dodaro. Yes. That is.
    Ms. Kelly. And in your opinion, what opportunities exist 
for reducing duplication and improving efficiency in this area?
    Mr. Dodaro. There are billions of dollars that can be saved 
in that area. I will have--Mr. Powner is our expert in the IT 
area. He can enumerate for you.
    Mr. Powner. Yeah. Probably the key area is data center 
consolidation. Right now we have 9----
    Ms. Kelly. Data center consolidation?
    Mr. Powner. Data center consolidation. We have 9,700 data 
centers, of which about 4,000 are planned to be closed. We have 
accomplished about 1,200 closures to date and about $1.5 
billion in savings, but there's still about $6 billion on the 
table. So when the comptroller mentions 60 more billion in 
savings, you could get $6 billion right from data centers 
alone.
    Ms. Kelly. And how many employees does that effect in a 
negative way, like losing their job?
    Mr. Powner. Well, actually, there's a lot of repurposing of 
jobs. The other thing, too, is some of these centers are rather 
small centers where there's portions of FTEs that are 
associated with that, so it's not all jobs going away.
    Ms. Kelly. Okay.
    Mr. Powner. But, again, we only have 10 percent utilization 
on an average government server. That's nowhere near the 
industry standard of 60, and we need to do something about 
that.
    Ms. Kelly. Okay. Thank you.
    Also, OMB in 2012 launched the PortfolioStat initiative. 
Under this program, agencies are required to review their IT 
investments in order to make more efficient decisions. How does 
the PortfolioStat help reduce wasteful spending by Federal 
agencies and has it?
    Mr. Powner. Yes. So PortfolioStat really tackles 
duplicative what we refer to as commodity IT or business 
systems. And if you look at--there are about 200 initiatives 
across all the departments and agencies where we could save an 
additional probably $2 to $3 billion. The numbers fluctuate at 
times.
    But in addition to the data center savings of $7.5, there's 
roughly $2 to $3 billion in that range. And there's already 
been many accomplishments to date that, I think, Beth mentioned 
in her statement on the savings to date with PortfolioStat. So 
we've gotten out of the gate well, but there's still a lot on 
the table. And that's where the recent legislation that this 
committee sponsored is critical to drive this home to closure 
so that we accomplish all those savings.
    Ms. Cobert. If I could add, we worked closely with GAO on 
these issues and the ability to get better data and better 
control over the spending through actions like FITARA, through 
the work of this committee, really gives us a foundation for 
something to have to keep managing very closely going forward.
    Mr. Connolly. Yeah. We prefer to call it Issa Connolly up 
here but----
    Ms. Kelly. This year's GAO report states, ``While the 26 
Federal agencies required to participate in PortfolioStat have 
made progress implementing OMB's initiatives, weaknesses 
existed in agency's implementation of the initiative.'' Do you 
feel like that's correct?
    Mr. Powner. Yeah. That is true. There's still room for 
improvement. In fact, we're issuing another report on 
PortfolioStat this Thursday, and it's going to talk about 
additional steps that need to occur.
    One of the things that's critical here is OMB's oversight 
as well as congressional oversight with FITARA is critical 
because agencies, they get out of the gate real aggressively 
and then, over time, you actually--you start to see that the 
savings that are planned aren't actually accomplished. So, 
OMB's oversight and the Congress's oversight with FITARA and 
the reporting will be essential.
    Ms. Kelly. Well, I want to thank you so much and I 
sincerely hope that we can work together to achieve the nearly 
$6 billion in savings with the proper implementation of the 
program. So thank you so much. 
    Mr. Connolly. Would my friend yield?
    Ms. Kelly. Yes. Your friend----
    Mr. Connolly. I thank my colleague.
    Just real briefly, let me urge upon you, I hope that in--
because you've been enthusiastic supporters of the acquisition 
reform for IT. OMB and GAO I hope can work with us in setting 
metrics.
    General Dodaro, for example, you mentioned data center 
consolidation. Well, we actually went, as you may recall in our 
field hearing, we went in the wrong direction. We didn't 
consolidate. We actually discovered thousands of new ones. And 
so we've got to make--we've got to set metrics for agencies, 
and they've got to meet them, and they've got to know you're 
going to be reporting at least annually on that.
    I know my friend, Mr. Meadows, shares my concern, and we're 
going to use our subcommittee to--to get periodic progress 
reports. But anything you two can do to--in trying that in 
metrics, I think, would be a great help and people will benefit 
from it. Thank you.
    Thank you, my friend.
    Mr. Meadows. [Presiding.] I thank the gentlelady. The chair 
recognizes the gentleman from South Carolina, Mr. Mulvaney.
    Mr. Mulvaney. Thank you, Mr. Chairman. Thanks everybody for 
doing this. This is actually one of the enjoyable hearings that 
we get to do. If you were here earlier today, you got an 
example of the unenjoyable ones.
    Mr. Dodaro, let's start with you and some general language. 
I'm curious as to how we can help. I was struck by Mr. 
Cummings' opening comments saying that Congress is actually 
sort of lagging behind the executive branch when it comes to 
fixing things. Give me a couple of examples for me and my 
colleagues as to what Congress could be doing to help implement 
your recommendations. What--what have we ignored so far?
    Mr. Dodaro. Yeah. Well, there's--to put things in, 
perspective though, of the amount of money that's been saved so 
far, planned to be saved, the 100 billion, the 80 and the 20 so 
far, most of that has come through the Congress passing 
legislation. So, I think, you know, for balance purposes, I 
think Congress has taken some actions that have resulted in 
probably about 75 or 80 percent of the dollar savings has come 
from the Congress taking action over a number of areas.
    Mr. Mulvaney. Okay. Thank you.
    Mr. Dodaro. So, I wanted to put that in perspective.
    There are number of areas in this--in this area. One, I 
mentioned some in the IRS areas right now. You could also 
increase the requirements for electronic filing that would give 
IRS more data to be able to use, give them increased 
information sharing areas. We have recommendations on how CMS 
ought to adjust the Medicare Advantage payments for Medicare 
payments, fee for service payments that could result in about, 
at least, $2 to $3 billion in increased savings.
    I mentioned in my opening statement the--these 11 cancer 
hospitals that were established in 1982. They have a different 
payment method. They get reimbursed all their costs, where 
other hospitals are providing cancer treatment get reimbursed 
at negotiated rates. Put them on a level playing field, you'd 
save half a billion dollars a year right there.
    I mentioned the Strategic Petroleum Reserve. The energy is 
going to move in that area. Congress should pay oversight in 
that area. We've had recommendations that there are duplicative 
situations that are unintended where you have somebody 
receiving a disability benefit and an unemployment benefit at 
the same time. Changing that statutorily would save about $1.2 
billion.
    Mr. Mulvaney. Do we need to change that statutorily or can 
that be done from an administrative or regulatory position?
    Mr. Dodaro. I believe it has to be statutory, but I'll 
double-check and provide an answer for the record on that.
    Mr. Mulvaney. Got you.
    Mr. Dodaro. There's also--we're not offsetting--the 
government is not offsetting pensions for State and local 
governments from Social Security benefits for spousal and 
survivor benefits. The administration has made proposals in 
this area to get this corrected for the last 4 years, and we 
think they're right, and the Congress just needs to pass 
legislation in this area. This is where, you know, for Federal 
employees, they have the information. They can offset it. For 
State and local governments don't pay into--some of their 
pension systems, they don't pay into Social Security, so they 
get a separate benefit, and the Federal law says that should be 
offset in that area and over time.
    There's also an area where, through demonstration projects, 
right now, the administration has the ability to approve tens 
of billions of dollars in additional Medicaid spending without 
the Congress having any insight into it, and we believe that 
that spending has not been budget neutral and according to the 
policies for HHS. And we think that that could be, you know, 
attended to as well to deal with these healthcare spendings.
    We've also suggested--there's a component in the DOD health 
system that was established in 1982 and before TRICARE was 
established in the 1990s. Now, TRICARE offers the same benefits 
as the component within DOD. We think that could be eliminated, 
could save millions of dollars. That has to be done 
statutorily.
    Mr. Mulvaney. Stick with me on DOD because you've mentioned 
this a couple of times in your testimony to the other members. 
Talk to me about weapons procurement. I think everybody in here 
is interested in a strong national defense, but everybody in 
here is also interested in doing it a little more cost-
effective way. You've got some interesting recommendations, 
don't you, on weapons acquisitions program--weapons program 
acquisitions?
    Mr. Dodaro. Yes. Yes. Yeah. We find that there are many 
reviews within the system that are duplicative and take years 
to complete and thousands of man hours to be able to handle 
those things. I will ask Paul Francis to explain.
    But we think the weapons systems acquisition process can be 
streamlined from a process standpoint, but they also need to 
implement best practices to mature technologies before they go 
into production. Both things have the potential to save tens of 
billions of dollars.
    Mr. Francis. Good afternoon. Yes. So what Mr. Dodaro just 
said, on the efficiencies, we found that, for a major milestone 
decision it takes 2 years for programs to get all the documents 
lined up for that, 5,600 staff days. And we find half of that 
time is reviewing documents, not preparing them.
    Mr. Mulvaney. Is that just for the big programs or is that 
for the smaller ones as well?
    Mr. Francis. The ones we looked at are for the big 
programs.
    Mr. Mulvaney. Okay.
    Mr. Francis. And I think we did a survey about half--the 
participants in the process view about half of the documents as 
having high value. The rest not. And about 10 percent of the 
reviews are considered to be high value. So there's a lot that 
could be streamlined there.
    Then on the other programs, the issue there is getting a 
good start, having a good business case to start a program. And 
that's where best practices and other techniques could really 
take hold. We get programs started that are underestimated at 
the beginning. They are too technically ambitious at the start. 
And it's years after a program is underway that reality sets in 
and we report on these cost increases.
    So, the easy answer is there's practices that we could 
employ to get programs started earlier. The real challenge is 
the acquisition culture. So I think a common way of looking at 
the acquisition process is to say it's broken and needs to be 
fixed. But I'd ask you to look at it a little differently. I 
think it's in equilibrium. I think all the players kind of get 
what they want out of it, and the cost we pay in terms of 
additional time and money is just the cost of doing business. 
So, we have to have a process that does a better job of saying 
no when no is to be said. But our process prefers to say yes.
    Mr. Mulvaney. I could do this all afternoon, but 
unfortunately I don't have that time. Thank you. Gentlemen, 
thank you.
    Mr. Chairman.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from California, Mr. 
Lieu.
    Mr. Lieu. Thank you. Let me first thank the panel for your 
public service.
    And I have questions about the laboratory inspections in 
the report. And it's my understanding that both the EPA and the 
FDA conduct laboratory inspections, is that correct?
    Mr. Dodaro. Yes.
    Mr. Lieu. And based on reports analysis, many of the 
regulations are very similar for both these agencies?
    Mr. Dodaro. Yes. Yes.
    Mr. Lieu. And as a result, for example, some laboratories 
in Maryland unknowingly were inspected by both agencies. One in 
Maryland was inspected eight times by the EPA and FDA roughly 
in the same time period. Is that correct?
    Mr. Dodaro. Yes.
    Mr. Lieu. Do these agencies talk to each other before they 
go do these inspections?
    Mr. Dodaro. I will ask Mr. Gaffigan to talk about that. 
They used to have a formal agreement, which is expired. And 
we're recommending they reinstate the agreement. I think it 
mostly had to do with one of the agencies moving to a quarterly 
inspection process and from an annual process and they got out 
of sync. And so they haven't talked to one another in the way 
that they should. And both have had trouble staffing, even 
though the inspections that they do.
    Mark.
    Mr. Gaffigan. Mr. Dodaro is correct. They haven't 
coordinated since 2007. So our recommendation was they come up 
with a memorandum of agreement to start working better 
together.
    Mr. Lieu. Are these surprise inspections or do the folks 
know they're coming?
    Mr. Gaffigan. I believe, most of the time, they know 
they're coming, but I can get you an official answer for the 
record.
    Mr. Lieu. It could be as simple as just notifying the other 
agency, right, that you're about----
    Mr. Gaffigan. Yes.
    Mr. Dodaro. This is not----
    Mr. Lieu. It's not rocket science.
    Mr. Dodaro. Yeah. This is not complicated.
    Mr. Lieu. Okay. All right.
    Mr. Dodaro. Now, we do work at NASA. That is rocket 
science, but this isn't.
    Mr. Lieu. When did that agreement that they used to have 
expire, do you remember?
    Mr. Dodaro. 2007 or 2004.
    Mr. Gaffigan. I think it's in that 2004 or 2007 range.
    Mr. Dodaro. Yeah.
    Mr. Lieu. Were these the only two agencies you serve find 
duplication in terms of laboratories, in terms of inspections?
    Mr. Gaffigan. These are the two that will do lab 
inspections looking at the good laboratory practices, which as 
you mentioned are very similar in their criteria. So there are 
other labs and other inspections, but this has the specific 
purpose to ensure that they have good laboratory practices.
    Mr. Dodaro. Yeah. And this can have--if the inspections 
aren't done properly, it can have implications for industry as 
well because they need to have the certification that they meet 
these requirements, and so that's one of the things we point 
out in the report. So this has not only implications for the 
Federal Government not leveraging its resources properly, but 
for industry as well.
    Mr. Lieu. Do you also look at duplication between other 
levels of government, such as State or county?
    Mr. Dodaro. Yeah. We're starting to do that now. The 
statutory requirement we have to produce this report is 
confined to across the Federal Government, but I believe there 
are areas of opportunity in streamlining across Federal, State, 
and local governments. And we're starting a pilot program now 
in the housing area to look at that, and I plan to do other 
areas.
    It's a complicated analysis because most of the States are 
different and they don't have standard procedures, but we have 
a very complicated intergovernmental delivery system in our 
country that, I believe, is pretty expensive, and I'm not sure 
we can afford to maintain it going forward. So I want to move 
into that area into the future.
    Mr. Lieu. I came from the California State Legislature, and 
I had noticed duplication in various areas. So I'm glad you're 
moving in that direction. I remember looking at weights and 
measures and some supermarkets would get inspected pretty much 
exactly the same thing, by the Federal, State, and city. So I 
commend you for going in that area, and I yield back the 
balance of my time.
    Mr. Dodaro. Okay. Actually, I have an advisory group of 
State auditors and local auditors that advise us. Elaine Howle, 
the State auditor from California, is on that group. So they're 
working--we're working collaboratively with State and local 
auditors as well.
    Mr. Lieu. Great. Thank you.
    Mr. Gaffigan. Congressman, just to clarify your question 
that they had the agreement from 1984 to 2004, although they 
kept meeting until 2007.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Iowa, Mr. Blum.
    Mr. Blum. Thank you, Mr. Chairman.
    Thank you for being here today. I appreciate your service 
to the government.
    I'm a career small businessman, so I may be one of the few 
here that--that, A, gets into this and, B, I personally think 
the GAO is one of the most important departments in our Federal 
Government. I'm also new here. I'm a freshman congressman, so I 
get a pass when I get to ask these dumb questions.
    First question. There are 24 programs, I believe, on your 
report for duplication of services. If you were a betting man, 
how many do you think are going to be on that report next year 
that were on the report this year?
    Mr. Dodaro. Two-thirds.
    Mr. Blum. Two-thirds. And how about in the 20----
    Mr. Dodaro. Now, I'm not a betting man, just for the 
record.
    Mr. Blum. We can strike that from the minutes.
    How about, how many will be on the report that are on the 
report this year in 2017?
    Mr. Dodaro. I'd say about half.
    Mr. Blum. 2018?
    Mr. Dodaro. Still about half.
    Mr. Blum. Yeah. And this is part of the problem. When I go 
back to my district in Iowa, people say the Federal Government 
spends too much, regulates too much, and wastes too much.
    Being a private sector guy, your department does a 
fantastic job of identifying these problems. What we're 
concerned about with is the ``A'' in GAO, which I believe 
stands for accountability.
    Mr. Dodaro. Correct.
    Mr. Blum. Who is accountable for eliminating this 
duplication of services next year and the year after? Who is 
accountable for eliminating waste in the Federal Government?
    Mr. Dodaro. It's both the administration and the Congress. 
That's why we have--keeping separate scores for what actions 
we've recommended that the Congress has to take and what 
actions the administration has to take. And that's how we 
define accountability.
    Now, accountability gets fuzzy when multiple agencies are 
involved in fixing a problem. And really our government 
structure is not well postured to deal with problems that 
involve multiple agencies. In the executive branch, an OMB 
would have to take action, but they have limited resources and 
the ability to produce change across time. And in the Congress, 
you have multiple committee jurisdictions. And so it's 
difficult to solve problems.
    Forty percent of what we have recommended that involve a 
single agency have been addressed. Only 25 percent where 
multiple agencies are involved have been addressed. And that's 
where I think the real weakness is in how we're organized both 
in the executive branch and the Congress.
    Mr. Blum. As a new person here, it seems to me that almost 
everything in the Federal Government is top down when compared 
to the private sector. Would you agree with that?
    Mr. Dodaro. Well, I'm not sure I would say everything is 
top down. I think there's a lot of things that go on throughout 
the bureaucracy that the top doesn't know about, you know, and 
so I think there's--you know, it's like parallel universes. I 
think that there's, you know, no such thing as a command and 
control structure except in the military that works 
effectively.
    Mr. Blum. Something I have noticed in the first 90 days 
here is it seems to me the incentives in Washington, D.C., the 
incentives in Federal Government, are backwards.
    And I'd like to ask you this: What incentive is there for a 
rank and file Federal employee to eliminate waste? What 
incentive is there for a rank and file Federal employee to 
eliminate duplications of services? In the private sector, 
there's incentives.
    Mr. Dodaro. Yeah.
    Mr. Blum. What incentives are there in the Federal 
Government for that to happen?
    Mr. Dodaro. No.
    Mr. Blum. I'm not seeing them.
    Mr. Dodaro. Right. Right. No, no, no, you're astutely 
observing. One of the more enduring problems in the government 
is that the incentives are more perverse than they are in the 
proper direction, and, you know, there's more incentive to make 
sure that you have the budget necessary. There's more incentive 
to pay quickly and then worry about whether you paid the right 
person later. There's more incentive to build structures.
    Now, they're all well intended in terms of trying to 
accomplish the mission of their agencies, but there's really--
you know, aside from an individual's sort of view on what their 
role as the Federal Government should be, as being a good 
public servant, there aren't really built-in systematic 
incentives to help produce the right outcomes.
    Mr. Blum. Because it seems to me that the incentive is to 
spend the entire budget or our budget will get cut next year. 
And do you think--do you think there's a chance we can 
introduce some best practices from the private sector into the 
Federal Government so that it comes from bottom up instead of 
top down, eliminating duplication, waste, fraud, from the rank 
and file Federal employees, and when someone identifies it that 
they are actually rewarded for that. Is there a chance of that?
    Mr. Dodaro. Yes. Yes. I mean, we've looked at a lot of best 
practices and have tried to get them implemented in agency 
policies and moving things forward, but they run against this 
tension that occurs in the backdrop, and it's--it's really 
exacerbated too by the fact that we're not producing regular 
budgets on time in the Federal Government. I mean, in the last 
50 years I think we've only had three instances where we've 
passed a budget without some form of continuing resolution for 
the rest of the government.
    So when you're in an uncertain budget environment, that 
complicates even if you have a good incentive structure in 
place. So I think we have to get to a regular order and then we 
can, you know, work to build better incentives into the system.
    Mr. Blum. My time is up, but once again I'd like to commend 
the GAO and yourself on the outstanding work that you do.
    Mr. Dodaro. Thank you.
    Mr. Blum. And I yield back to the chair.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentlewoman from Illinois, Ms. 
Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Inspector Dodaro, I was pleased to see that you included in 
your report the savings the government is already realizing 
from the Army's choice not to introduce a new family of 
camouflage uniforms into its inventory. Your report notes that 
this will save taxpayers about $4.2 billion over the next 5 
years, and in fact I offered the amendment in the 2014 NDAA 
that requires DOD to establish a joint camouflage pattern when 
developing new combat uniforms so that the taxpayers won't have 
to pay millions to the government to keep developing new 
patterns for every branch of service, that also sometimes don't 
protect troops in combat such as the Navy's blueberry uniform 
that they can't wear on ships because when they fall over into 
the--fall overboard, they are blended with the ocean and you 
can't actually rescue the sailors.
    Can you give me an update on where DOD's compliance is with 
this requirement?
    Mr. Dodaro. Yes. Let me ask Ms. Berrick to come and provide 
that. I appreciate your sponsorship of the amendments. It was 
very important. Thank you.
    Ms. Berrick. Yeah. Thank you for the question. There has 
been significant progress. In fact, we identified that DOD 
saved over $5 billion in savings from pursuing a consolidated 
uniform moving forward. When we started the work and issued 
last year's duplication--or the year before's duplication 
report, the Army was getting ready to move forward with a 
procurement for their own camouflage uniform, but thanks to the 
legislation that you helped sponsor and which required DOD to 
pursue this in a more coordinated fashion, they did, in fact, 
do that and made some progress.
    In addition, DOD issued some joint criteria to ensure that 
the protection of the servicemembers on the battlefield when 
they're developing uniforms, and that they do that in a 
coordinated fashion as well. So there has been some good 
progress.
    Ms. Duckworth. That's good to hear. Thank you.
    In reviewing the GAO report, Ms. Cobert--is it Cobert or 
Cobert?
    Ms. Cobert. Cobert's correct.
    Ms. Duckworth. All right. Thank you.
    Ms. Cobert. Not Colbert.
    Ms. Duckworth. Not Colbert. I almost went there, but I 
didn't.
    Ms. Cobert. Most people do.
    Ms. Duckworth. We've all been trained by popular cable 
shows.
    I noted that better management of software licenses is 
known as an area where savings can be achieved. Can you please 
help me understand OMB's view on how agencies can better manage 
their software licenses? Specifically, I'd like to hear how OMB 
believes agencies should inventory that software, see how much 
of it is actually deployed to end users, and how much of what's 
deployed is actually being put to use. If you can't inventory 
it, how can you--how can you effectively control waste if you 
can't inventory it?
    Ms. Cobert. Thank you for raising this issue, and I also 
want to thank our colleagues at GAO for raising this issue in 
the report. It is something that we believe is important to 
address and working with them and working with agencies, we are 
moving to tackle that.
    One of the first places starts where you said, which is 
having an accurate inventory of software licences. Software and 
IT purchasing across the Federal Government has been highly 
decentralized both among inside of agencies and components 
within agencies as well as across agencies. One of the first 
steps that we're taking as part of our category management 
initiative around IT is to develop a much more accurate 
inventory of licenses that exist and the utilization of those 
licenses today. As the way agencies use software changes, for 
example, as we are succeeding in moving more to the cloud, the 
ability to have a consolidated view of licenses becomes much 
easier and the ability to be smarter about how to manage those 
licenses, how to think about what you're paying for for those 
licenses, how to make sure that these things are current and 
used and you're not paying for what you don't need becomes much 
easier. So we are in the midst of an effort to do that now.
    As I mentioned earlier, the FITARA legislations gives us 
more authority in terms of how we get agencies to consolidate 
and coordinate their buying. And as we're putting together the 
guidance for that newly enacted law, this is one of the areas 
that we're focusing on. It is a big priority for our Federal 
CIO, who just joined us from industry. So he really brings a 
lot of the best practices that industry is using to this 
important area. Something we're going to a be a big focus for 
our work in 2015.
    Ms. Duckworth. Thank you. Are any of those--is there a 
practice in Federal Government where a license is automatically 
renewed and nobody's reviewing whether or not we're actually 
using old licenses and they've gone on and bought new software 
packages but they're still--we're still paying for stuff that's 
automatically renewed?
    Ms. Cobert. I don't have the specifics of that, but in my 
life in the private sector, when I looked at those issues, you 
would find many instance of that. And I wouldn't be surprised 
if my colleagues would tell me that were the case, at least in 
some places.
    Mr. Powner. Yeah. The key here starts with the inventories, 
Congresswoman. Our work has showed that when we looked at 
software licensing, out of the 24 agencies only 2 had a 
complete inventory. We had 22 agencies that did not have a 
complete inventory. So--and there's a big effort afoot, part of 
OMB's efforts with portfolio, start looking at application, 
rationalization, what do we have on our servers, inventorying 
all that. So it wouldn't be surprising if you had many licenses 
that we don't even know they're getting renewed. There's huge 
opportunities here. There's pockets of success. DHS went 
through some really nice efforts where they saved hundreds of 
millions of dollars. There's hundreds of millions of dollars on 
the table if we did this right, but we really don't know what 
we have right now collectively.
    Ms. Duckworth. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Meadows. I thank the gentlewoman.
    The chair recognizes the gentleman from Georgia, Mr. Hice.
    Mr. Hice. Thank you, Mr. Chairman, and I, like my other 
colleagues, thank you both for being here and all that you do. 
Of course you've just got a critical responsibility, and we 
appreciate the information that you provide.
    I think we all know and probably most of us would readily 
admit the obvious appearance is we've created a monster around 
here, and you guys are tasked with the responsibility of 
keeping us aware of just how big that monster is and what we 
can potentially do to, to reign it in a little bit. And I 
wonder in that context with all the duplication that you've 
mentioned, are there any areas that you would just come out and 
be able to identify as unnecessary, that we've got so much 
duplication, that this area or the other one we could just do 
away with?
    I'll start with you, Mr. Dodaro.
    Mr. Dodaro. There's not been an area where we've said you 
could do away with all activity in a particular area. I mean, 
most of those are policy judgments that would require the 
Congress to say there's not a need in this particular area for 
you to do that. We have, you know, recommended where you 
clearly have duplication, and this year's--our prime example is 
this institution that was created in 1982 within DOD. It was 
well intended. It was a public service function that was turned 
over to DOD to help serve the military and their families, but 
then TRICARE came along about 15 years later, and as typical in 
the Federal Government, we just layer things on. You know, we 
don't never go back and take anything away, and so now the same 
people can be served by the TRICARE community and you don't 
need this separate system. And within--when Congress created 
this, it gave DOD a difficult task because they can't even get 
the information from the providers in this contract to know 
what their direct costs are and what profit margins and 
administrative costs are. So they're really disadvantaged of 
this area. So we're identifying where you have clear 
duplication, you can eliminate that duplication, save a lot of 
money. That's been most of our focus.
    Mr. Hice. Okay. Ms. Cobert, do you have anything to add to 
that?
    Ms. Cobert. I'd like to add to Gene's comments about the 
need to both think about areas where there are duplication and 
where there are areas where there may be more fragmentation or 
overlap that you're not able to address immediately through 
some other structure is finding a way to coordinate across 
agencies.
    One area we did that quite successfully is looking at 
science, technology, engineering, and math education, where we 
looked at the effectiveness of programs, put together a 5-year 
plan. We've reduced the number of programs from 220 to 140 and 
now have those programs much more balanced and effective. It's 
a critical area of importance for our Nation's future. And what 
we tried to do in that is get the interagency process to say: 
Who is doing the best job at each one of these things, and then 
reallocate within that to the people who had the best 
capabilities. Those kinds of processes can work. They take a 
lot of work to make happen.
    Mr. Hice. Sure they do. I'm positive of that.
    Do you find--and that's a great example, do you find most 
of the time that these agencies follow your recommendations, or 
is that a challenge in itself?
    Mr. Dodaro. Yeah. Our experience over a 4-year period of 
time, 80 percent of our recommendations get implemented. And 
what we feature in our high-risk series and this overlap and 
duplication report are those where they haven't yet been 
implemented that require some difficult decisions. They're 
among the more difficult areas in the Federal Government. But 
also to your earlier question, one of the things that's really 
inhibited us from making stronger recommendations about whether 
you need to retain some of these functions is the lack of good 
performance evaluations in the Federal Government. And Beth 
just mentioned in the science, technology, and engineering 
area, what we first looked at--there were 209 programs, 66 
percent of them had never been evaluated. So you really didn't 
know what was working and what was not working, and this is not 
atypical across Federal Government.
    Mr. Hice. Okay. What about--some of the issues you brought 
up with the DOD, we hinted around this, but the enormous amount 
of property and facilities that they own. And my understanding, 
53 percent of it is all that they can really account for in 
terms of being utilized, and even a lot of that information is 
inaccurate. This has got to be problematic. I'm sure you've 
given recommendations. Are they following the recommendations 
that you've provided?
    Mr. Dodaro. Yeah. I'll ask Ms. Berrick to explain in that 
area, but I was very concerned. They've made such incremental 
progress in correcting the data in their database, it was 
almost imperceptible, but they need to do a lot better job. If 
you're going to intelligently manage things, you need better 
data.
    Mr. Hice. Right.
    Mr. Dodaro. Cathy.
    Ms. Berrick. Yeah. And I'll start off by saying that GAO's 
designated this actually a high-risk area for DOD, that they 
get a better handle on their property. But just to give you a 
few statistics, DOD has over 500,000 real property entities 
that's valued at about $850 billion. So the magnitude of this 
is really enormous. DOD manages their real property through a 
database, as you mentioned. Most of the records in that 
database are blank. And there's only data elements for about 53 
percent of those facilities.
    In addition, the data that's there, there's lots of 
inaccuracies. So, for example, we found another 7,500 records 
that showed a zero percent utilization record in their 
database, yet it was shown in active status, which means it's 
needed for DOD to meet its mission. During the course of our 
work we actually visited 12 installations to see if we could 
find facilities just visiting those 12 that were underutilized 
or unutilized. And, by the way, this is important because those 
facilities could be disposed of to achieve savings or 
underutilized facilities could be consolidated to achieve 
savings. At just those 12 facilities we identified a number of 
examples. Four buildings specifically that were sitting empty. 
They weren't reflected on the property management records. And 
there was an opportunity with those four to potentially dispose 
of them or consolidate space.
    So we'll continue to monitor it. DOD's made some 
incremental improvements in their data. They recognize it's a 
problem, but more work remains.
    Mr. Dodaro. I think this is an area for congressional 
direction to DOD. That works effectively through the 
authorization bills to get their act together in this area.
    Mr. Hice. Right. I thank you. My time's expired, but if you 
could send us some information as to why they have not gotten 
to this, I think that would be helpful.
    Mr. Dodaro. Sure.
    Mr. Hice. Thank you, Mr. Chairman.
    Mr. Dodaro. Be happy to.
    Mr. Meadows. I thank the gentleman. And the chair 
recognizes the gentlewoman from Michigan, Ms. Lawrence.
    Mrs. Lawrence. Thank you, Mr. Chairman.
    I want to thank you for being here today on this liquid 
sunshine day.
    The report issued by GAO details major progress made by the 
executive agencies and Congress. Based on this year's report it 
looks like Congress is not doing as well as the executive 
branch at implementing the GAO recommendations on waste, fraud, 
and abuse. According to the report, GAO made 369 
recommendations to the executive branch, and 317 of those 
recommendations have been fully implemented. Is that correct?
    Mr. Dodaro. Yes.
    Mrs. Lawrence. Okay. The report also stated that 69 
recommendations for Congress were made and only 31 of those 
have been fully or partially completed. Is that correct?
    Mr. Dodaro. Yes.
    Mrs. Lawrence. So, your agency is often called the 
Congressional watchdog by investigating how Federal Government 
spends tax dollars, and you are the ones that are supposed to 
identify those and make sure that we are aware of 
recommendations--make recommendations. Is that correct?
    Mr. Dodaro. Yes.
    Mrs. Lawrence. Okay. So, can you--you know, I know we have 
a short period here, but can you sum up--talk to me about the 
31 recommendations made to Congress in its report that deal 
directly with waste or abuse that has not been completely 
addressed?
    Mr. Dodaro. Right. We've made recommendations, for example, 
on this eliminating the overlap between the disability benefits 
and unemployment insurance and people receiving those at the 
same time. We've made recommendations on crop insurance, for 
example, that there be limits placed on the amount of subsidies 
for purchasing the premiums on crop subsidies. We believe that 
could save a couple billion dollars, and to--Congress a while 
ago changed the taxes on certain tobaccos for cigars and 
cigarettes, but the industry moved to using less taxed items, 
you know, like roll your own tobacco instead. So there's 
unlevel playing field. We believe if Congress could implement 
those changes, you'd get about $600 billion or a billion more 
in revenues by level the playing field on tobacco taxes.
    We've recommended many changes to the IRS to help deal with 
their challenges over there, giving them math authority, et 
cetera. We've recommended that there be additional information 
collected for offsetting pension costs for survivors and 
spouses and Social Security, and in order to equitably treat 
people the same under the rules. That hasn't been acted as 
well. So we've got a long list.
    Now, in fairness to the Congress, every new Congress our 
clock restarts, is partially completed. So anything the last 
Congress did to partially complete, which would have been to 
introduce a bill, get it marked up through committee. You can 
get through a committee mark up we rate it as partial. And so 
with this new Congress sort of the re-clock set there.
    Also I would say that most of the major savings to date, 
the $100 billion that's been saved or will be saved, has 
largely come from congressional action. So just--just to put it 
all in perspective.
    Mrs. Lawrence. And that's my point of putting it in 
perspective. So we're being evaluated on whether we are in 
compliance. You've said the clock is reset at every one--and 
if--it's only partially addressed if it's made it to--through 
committee.
    Have you ever--or not you, but have the GAO ever considered 
revising its methodology for determining whether an action is 
partially addressed by Congress? Have you--have you all had any 
discussion on that, considering, you stated, that the clock is 
resetting every Congress, and so it gives the impression that 
Congress is not addressing these issues.
    Mr. Dodaro. Yes. We have not yet, you know, reevaluated the 
criteria for making these determinations. This is the first 
time it's come up as an issue. But we'd be happy to take a look 
at it and see if there's any--a better way to do that, but we 
try to provide in the report a balanced perspective. If you 
just look at the table out of context from the narrative in the 
report, you can draw the wrong conclusion.
    Mrs. Lawrence. Yes.
    Mr. Dodaro. But if you read the whole report, I belive 
you'll get the proper perspective.
    Mrs. Lawrence. Well, I just want to, you know, to the chair 
and to--and thank you all for being here today. So that clearly 
here in Congress as Representatives of the people, and stewards 
of the taxpayer's dollars, we should be doing at least as good 
as the executive branch if not better. I would--I would 
respectfully ask that we look at this methodology because we 
will continuously as the clock resets, appear to the taxpayers 
that we are not giving serious actions and considerations to 
your report.
    Thank you. And I yield back my time.
    Mr. Dodaro. Yeah. We will do that, but I've been informed 
by my team that only two issues have been reset among the 
recommendations that we have, but we'll take a look at it.
    Mrs. Lawrence. Thank you.
    Mr. Palmer. If the gentlelady would yield, I'd just like to 
point out that the GAO recommendations from last year are in 
this year's budget that was passed by the House.
    Mr. Meadows. All right. The chair recognizes the gentleman 
from Wisconsin, Mr. Grothman.
    Mr. Grothman. Yeah. Thanks for being here, and you 
certainly presented a--many, many ways for the government to 
save money, and we hope they all survive the appropriations 
process. There are two I want to focus on in particular.
    One is you talk about abuse of children's SSI benefits, and 
I know recently that the number of people--children who are 
being described as disabled has gone through the roof, and of 
course there's certainly a lot of anecdotal evidence of severe 
abuses here. I wonder if you could elaborate on that a little 
bit.
    Mr. Dodaro. Yeah. Basically I'll ask Ms. Bovbjerg, who's 
our expert in the area, to elaborate a bit. But the basic 
issue, Congressman, is that they're supposed to have continuing 
reviews to see if the situation has improved so that the 
children or even adults in that matter can overcome their 
disability, but Barb.
    Ms. Bovbjerg. Yeah. Continuing disability reviews are 
medical reviews to see if they're still qualified for 
disability benefits. And the Social Security Administration has 
really not been doing many for children. And they have told us 
that the reason for this is that they--they're husbanding their 
resources and they've chosen to focus on the adults. But the 
fact of the matter is they really have not done the level of 
continuing disability review for any age that they should be 
doing. This is something that every dollar spent saves $9 in 
Federal funds. And in this case we were talking about children 
in Supplemental Security Income, which is a general fund 
program. But if you think about it also for disability 
insurance, which is a trust fund funded program, this is a 
program integrity issue in programs that are going to run out 
of money. So it's really important that they take this very 
seriously because otherwise they will be paying disability 
benefits for years to people who have medically improved to the 
extent that they don't--they don't any longer meet the 
eligibility requirements.
    Mr. Grothman. Or maybe they weren't disabled in the first 
place and they slipped between the cracks. Is that possible?
    Ms. Bovbjerg. It's always possible, but I like to think 
that that doesn't happen a lot.
    Mr. Grothman. Okay. Do you know right off the top of your 
head the increase in the number of people on SSI, children on 
SSI?
    Ms. Bovbjerg. I don't, but it has gone up. Disability in 
all categories has gone up.
    Mr. Dodaro. We'll provide the specific numbers for the 
record.
    Mr. Grothman. Okay. Could you elaborate a little bit more 
on some of your suggestions for the SNAP program?
    Ms. Bovbjerg. Well, the one in this year's report is really 
about how they--how States who are responsible for managing 
waste, fraud, and abuse in the food stamp program, are trying 
to discern who is essentially selling their cards. And the 
guidance given by the Food and Nutrition Service suggests that 
whenever somebody has gotten four replacement cards you better 
look at that individual. And in our work, we took to heart that 
the State said can't look at all those people and it's not--
it's not--we're not getting anything from this. We're 
essentially getting people who have an unstable living 
environment. You know, they might be homeless and they're 
losing their cards. They weren't finding people selling their 
cards. And we found a way that they could use the same data and 
they could just better target their approach, that we felt that 
if they looked for someone who asked for four replacement cards 
in four different benefit periods, that reduced the number of 
people they were looking at, at least in the three States that 
we examined, by almost half, and then they could focus much 
more greatly on these people who are much more likely to have 
been selling their cards.
    Mr. Dodaro. Yeah. We find that there's a greater need to 
use technology and data analytics and data mining to target 
Federal efforts to find fraud, waste, and abuse. And there 
really, in some cases, aren't that great of incentives for 
doing it. This is a case where the Federal Government pays all 
the cost, the States are administering the program, and so 
there's, you know, not that great of incentive for them to do 
this. So we're trying to urge them to take--use more techniques 
then to try to urge the Federal agency to provide support to 
the States and urge them to look better at this area.
    Mr. Grothman. There were people who didn't believe there 
was a lot of evidence that people were selling cards?
    Ms. Bovbjerg. The ones that they looked at--the ones that 
they looked at just on the basis of the four card rule, it 
wasn't panning out for them at the level that you would expect 
and you would want. And, we felt that the States should spend 
their resources--their limited resources on the people who are 
more likely selling the cards. Certainly you want to look at 
everybody, but if you don't have the resources you definitely 
want to target.
    Mr. Grothman. Thank you for calling on me.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Oklahoma, Mr. 
Russell.
    Mr. Russell. Thank you, Mr. Chairman, and thank you each 
for being here and for the work that you do.
    The Social Security department shows six and a half million 
active accounts to Americans that are at least 112 years old or 
older. Have you run into any of this in your own accounting for 
the problems that we have on--I mean, we talk a lot about the 
disability, and we know the trouble that it is in, but six and 
a half million active accounts of Americans that are 112 years 
old or older?
    Mr. Dodaro. Yes. Go ahead, Barb.
    Ms. Bovbjerg. We have done work on the Social Security 
records. We've been very interested in their death records. And 
why you would have people who were 112 and older who were not 
in the death records is troubling. And I think the Social 
Security's response to this has been the people that were 
identified, in particular by their inspector general most 
recently, are not active beneficiaries. So, we don't really 
need to verify that because it's not part of our program.
    But the death records are a very important aspect of 
program integrity across the Federal Government. They're shared 
with other agencies to make sure that we're not sending checks 
to dead people, and it would be very important to keep that 
information up-to-date. So, yeah, we're very concerned about 
that.
    Mr. Russell. Do you think with six and a half million of 
them that are still listed as active accounts that maybe some 
of those might be abused?
    Ms. Bovbjerg. Absolutely. And some of them are.
    Mr. Russell. And with the things that have been pointed out 
with TRICARE and Veterans Administration, as a military 
retiree, I'm on TRICARE for life, which really means TRICARE to 
65 and then it rolls over to something else. We went through a 
gyration in the military even when I was on active duty when 
they revamped to go to TRICARE, and we see a reduction in base 
hospital and healthcare facilities that could not accommodate, 
and then they would move you to the local community and you 
would receive your care there, which is much what I do now. 
Even as a Member of Congress I have those exemptions under a 
different title of law. I pay a copay, I go out and I--as a 
veteran of several wars, I have my medical desires met.
    Do you feel that a construct like that would be adequate to 
even replace the VA?
    Mr. Dodaro. You know, I don't know if we've----
    Ms. Bascetta. We haven't done work specifically on that 
question, but we do know that for many years before the recent 
concerns about waiting times at the--at the VA, there were--
there were limitations in their ability to take care of all of 
the veterans. So they've always had a capacity to send veterans 
out on the market for what they then call fee basis care. That 
was greatly expanded through the Choice program. We have very 
significant concerns not only in the civilian sector, but 
actually in--for all of us about coordination of care in those 
situations. It's one thing to have the most cost effective care 
available. That's critically important, but the quality of that 
care and the coordination to ensure that the care is actually 
value based is where we are really trying to drive care for 
everybody in----
    Mr. Russell. I would suggest that the lack of overhead, the 
lack of payment of salaries, the lack of all of the other 
things, just paying for the care outright might be a way to 
solve a lot of the VA issues that we're dealing with and we 
have other medical systems that are proving that to be at a 
rate lower than Medicare which was the basis of some of your 
reports.
    The Department of Defense, it spent $14.4 million in 
storage of items that have not been requested in over 5 years. 
For example, a $391 power mast that hasn't been asked for and 
has cost $8,000 to store in over 5 years, and this while we had 
active theaters of war in both Iraq and Afghanistan. How do we 
address the things that--I understand giant gears and things 
that we might need in some national global emergency, but 
that's not what we're talking about here. What--what is being 
done to address this massive storage problem of things that 
aren't even asked for in over 5 years?
    Ms. Berrick. Sure. This is--actually is another GAO high 
risk area, supply chain management, of which inventory is one 
of three elements of it. There's actually a good news story 
here in that DOD has paid considerable attention to making sure 
that they only have the inventory on hand that they need. They 
set aggressive inventory reduction goals over the past years 
and largely have achieved them. There's only one remaining area 
that we're really focused on, is that they maintain the 
progress that they've made to date, and that they put in a 
framework to ensure that this continues as leadership changes 
within the military, that they keep this emphasis in focus. So 
we think this is actually a good news story, but that DOD needs 
to continue the progress that it's made in this area.
    Mr. Russell. Thank you. And thank you for your answers. 
Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman. The chair recognizes 
the gentlewoman from New York, Ms. Maloney.
    Mrs. Maloney. Thank you. Thank you, Mr. Chairman. Welcome 
to all the witnesses. Good to see you again, Mr. Dodaro, and 
I'd like to ask you about the Data Act which was passed in a 
bipartisan way by this committee, and it helps reduce 
duplication by making spending data comparable across all 
programs. This also allows the executive branch to better 
measure the cost to the Federal Government for these 
investments. When you testified last year before this 
committee, you said that passing the Data Act, ``One of the 
biggest single things that could be done in order to provide 
more transparency on the cost of these programs and 
activities.'' Do you remember saying that?
    Mr. Dodaro. Yes.
    Mrs. Maloney. Can you explain why you believe this? Why you 
believe this so strongly, it's an important--important 
statement you made?
    Mr. Dodaro. Well, one of the areas that we have had the 
most difficulty in looking at the overlap and duplication in 
the Federal Government is lack of good information about what's 
being spent for all these programs and activities. And the 
other area that we've identified as a problem is that there's 
not a lot of good performance--measurement of performance 
evaluation information.
    So if you don't know what you're spending on a program and 
if you don't know whether the program's effective or not, 
you're really handicapped at making good intelligent decisions. 
And for us to be able to advise the Congress on that area and 
the American public, who fund the government and have 
responsibility for eventually servicing all the debt that we're 
accumulating, basically have no visibility and to the 
government's activities on information that they can see what 
the results are of all the Federal Government's activities. So 
if you don't have an informed set of decisionmakers and elected 
officials that have access to this data and the public is not 
in a good position to have good confidence in government 
because they can't see what's being done, then I think you have 
problems. And that's why I said what I did and I--I meant it.
    Mrs. Maloney. And then the President signed it into law in 
the last session. And how are we coming about in implementing 
it? It certainly makes good sense. If you don't have good data 
you can't make good decisions, and certainly we need to 
understand and make comparisons, but it just got passed I guess 
a year ago. So, when will it be completely implemented in 
Congress----
    Mr. Dodaro. Well, it had a phased implementation in the 
legislation. By May, next month, OMB and Treasury are to issue 
the data standards, and I'm sure Beth can speak to what OMB and 
Treasury are doing to implement this. Then there's a 2-year 
period to allow the agencies to prepare to implement the data 
standards properly, and then GAO and the IGs have the audit 
responsibilities down the road. But I'm--I'm going to issue a 
report to Congress this year. Under the statue, the first 
report that was asked for was 2017, but I want to give the 
Congress a good up-to-date report on how its early 
implementation is going. So, you'll get a report from us later 
this year. I think they're off to a good start, but there's a 
lot that needs to be done.
    Mrs. Maloney. When do you expect it to be up and running so 
you can make these good decisions? Is it 2 years or----
    Mr. Dodaro. Well--yeah, under the law, the--the--2017 would 
be the first year that it would be implemented.
    Mrs. Maloney. Okay. And what are the--have you compiled the 
data standards yet, Ms. Cobert? Are you compiling them?
    Ms. Cobert. We are working on the data standards that are 
due in May. There's been an active process of consultation with 
many different stakeholders inside the executive branch, with 
Congress, external stakeholders, to get those data standards 
defined in a way that makes sense. And we have been actively 
working on that to meet the May deadlines. As Gene said, this 
is a big focus of our office. We do believe that the Data Act 
creates real potential to provide better information to 
decision makers inside all parts of government, and are taking 
our responsibility to execute against the recommendations and 
the Congressional mandate that's been given to us very, very 
seriously.
    Mrs. Maloney.And have there been any--any unexpected 
problems that have come up from OMB or Treasury that you've had 
to address?
    Ms. Cobert. It is a complicated process to take financial 
systems that were in some ways designed for a different purpose 
and turn them into being used this way. So there is a lot of 
hard detailed work. We've requested funding in the fiscal year 
2016 budget to help ensure we can meet the implementation 
timeline. So we've been working our way through this, and we 
will continue to be working our way through this according to 
the time table that Congress has set out.
    Mrs. Maloney. Well, my time is expired, but I would be very 
interested in seeing what your data components are, and I'd 
like to see if you could give them to the chairman and maybe he 
could share them with me. Because I really would be interested 
in seeing them. Congratulations. I think it's a really 
important project and one we should already have up and 
running. Thank you.
    Mr. Dodaro. I think it would be very helpful to have 
congressional input into the standards to make sure that 
they're going to produce the type of data that you would like 
to see. So I think that's an excellent idea.
    Mrs. Maloney. Thank you.
    Mr. Meadows. I thank the gentlewoman.
    Let me--one follow up question, Ms. Cobert. So it doesn't 
sound like you're going to meet the May 9 or you are going to 
meet it. So if you're not going to meet it, when could we 
expect it since a lot of this--you know, you've got to get 
yours in before the rest. So just as a follow-up.
    Ms. Cobert. We've been working for the May deadline. That 
is the path that we're on right now. So, you know, that's--
that's----
    Mr. Meadows. So if we miss it, we're going to miss it by 
days and weeks not months or years?
    Ms. Cobert. Yeah. Oh, no. No. Yeah.
    Mr. Meadows. All right. Thank you.
    The chair recognizes the gentleman from Alabama, Mr. 
Palmer.
    Mr. Palmer. Thank you, Mr. Chairman. I really love the work 
you guys are doing. This is--having run a think tank for 20-
something years, it's right in my sweet spot. So I commend you 
for the work you're doing and hope you'll keep it up. Just have 
a couple of questions about the work you did on the Strategic 
Petroleum Reserve and the potential for generating revenues by 
getting that down to a 90-day reserve. I think we're in excess 
of that right now.
    Mr. Dodaro. Yes. Yeah, that's--that's correct. The 
international standard is a 90-day supply considering both 
government and the private sector having total resources. Right 
now the Federal Government has a 106-day supply. The latest 
estimate on the private sector is 141-day supply. We think that 
it's time to reexamine this. Mostly because of the increase in 
production. You know, we've had a lot of technology 
improvements. Last year's 2013 and 2014 were some of the most 
record years of oil production in the United States history, 
and so we're on track by international standards to be the 
largest producer in the world. So we think it's a good time to 
reevaluate this. The Strategic Petroleum Reserve is aging. The 
infrastructure is aging. We think you could not only sell some 
of the oil potentially, depending on the reassessment, to get 
billions of dollars, you could reduce administrative costs. And 
then also maybe you could minimize the cost of replacing the 
infrastructure eventually.
    Mr. Palmer. On the private sector that's holding 141 days, 
do you know if that includes what's sitting in tanker cars 
because they've got nowhere to go with it right now?
    Mr. Dodaro. Yeah. Mark?
    Mr. Gaffigan. I'd be surprised if it includes that. It's 
very hard to measure these things after it reply--and rely on 
the industry, self-reporting, but I do know that the numbers 
Mr. Dodaro was quoting was based on the work we did in December 
of 2014, the 140-plus days, that's increased, and we think it's 
over 200 days at this point and----
    Mr. Palmer. That's the good news. The bad news is is that I 
think at that time the price was about $65 a barrel and we're 
down to $52 something or----
    Mr. Gaffigan. Right. We looked at it this morning, and $56 
is what it is based on. But still if you look at--and it's--the 
other part of this is it's based on the net imports. So when we 
did the analysis in 2014, it was based on net imports for 2013. 
Looking at net imports for 2014, the number of days has 
increased as well. So, while the price has dropped some, the 
number of days beyond the 90 has increased substantially.
    Mr. Palmer. I'm also looking at the reserves that the 
Federal Government owns in places like the Green River 
Formation. I think there's some interest in expanding our 
research into the outer continental shelf and the potential for 
generating revenue to meet our revenue needs, everything from 
infrastructure to defense to running the government, are 
enormous.
    Let me ask you--let me switch horses on you here for a 
moment and go back to the IRS, and I don't know if the GAO has 
any ideas on this, and that is the fact that I think we only 
collect about 84 percent of the taxes that are owed us. I think 
we wind up collecting some additional amounts, but on a year-
to-year basis. And that has to do, I think, with the difficulty 
of pursuing these cases, the cost. Does the GAO--have you 
looked into this and do you have any recommendations for what 
the IRS could do to facilitate this so that we actually collect 
the money that's owed us?
    Mr. Dodaro. Yes. We've been very concerned about the tax 
gap between taxes owed and taxes collected. Right now the 
latest estimate of IRS is that an $385 billion gap between 
taxes owed and taxes collected under the current structure. We 
have a long list of recommendations of things that the IRS 
could do in order to enhance collection activities revolved 
around a couple of themes. One is getting better return on 
investment numbers of exactly what--tying their initiatives to 
specific revenue collection activities. They don't have a lot 
of good data. We illustrated what could be done by shifting, if 
they shifted based on looking at return on investment, $124 
million from field audits, exams, to correspondence audits, 
they could collect an additional billion dollars. So that--
that's it.
    We have recommendations to the Congress, two of things 
Congress could do, to increase the collection figures. For 
example, to allow IRS to set standards for paid tax preparers. 
Most of the tax returns are--people use paid tax preparers. We 
found that in a lot of cases, when we did undercover 
operations, sent people into 19 paid tax preparers, only two of 
them gave us the right answers to the questions. So we think 
this could be something that Oregon has done, some of the 
States have done, that could be implemented at a broader level. 
Simplifying the tax code would help greatly in this regard. So 
we have a lot of recommendations that both IRS and the Congress 
could implement to address this issue.
    Mr. Palmer. Thank you for your work.
    I yield the balance of my time.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from North Carolina, Mr. 
Walker.
    Mr. Walker. Thank you, Mr. Chairman. Thank you, Mr. Dodaro, 
appreciate your time, and all the witnesses there. Only two 
have nodded off in the last 30--no. I'm just teasing you. We 
wouldn't blame you at certain times, but I am--I've got a 
couple questions here but I want to get more in depth in the 
process a little bit. Sometimes we get a little bit more 
subjective than objective, and even heard the gentlelady from 
Michigan talking about if we could only replicate more the way 
the executive branch operates.
    And I want to talk a little bit about the process. 
Obviously, you have a very distinguished career, winning many 
awards, and except the 2013 Braden Award, most of those awards 
came before you took over the GAO office, and I don't know if 
that means you did a great job or exactly what. But my question 
is, my first question is, when you're implementing or taking 
action steps, can you talk about the process when you see 
there's an issue, there's a concern, I'd like to take it from a 
30,000-foot perspective, but then hone in on a couple Medicare 
questions in just a minute.
    Mr. Dodaro. Yeah, sure. Well, we produce reports, have 
recommendations in the reports. Agencies will let us know 
whether they agree with the recommendations or not. In our 
reports, in addition to making recommendations to executive 
branch agencies, we also make recommendations to the Congress. 
Matters for the congressional consideration. We have a regular 
follow-up process on those recommendations. Over a 4-year 
period, 80 percent are implemented. On average last year 
implementation of our recommendations resulted in $54 billion 
in financial benefits to the Federal Government. So about $100 
back for every dollar invested in GAO. About 1,200 non-
financial benefits, improvements in public safety and other 
things that are in place.
    Now, after a while, if our recommendations aren't 
implemented, I'll either go to an agency head and say--in fact, 
we're getting ready to send letters to all of the major 
executive branch agency heads with--highlighting key 
recommendations that are not yet implemented. We'll go to the 
Congress and try to get the Congress to implement the 
recommendations in the appropriations process or authorization 
bills. So a lot of our recommendations get implemented that way 
through the Congress.
    Mr. Walker. That helps me tremendously. Are most of those 
self-initiated observations, or do you get those from Congress? 
How would you come about putting on these smorgasbord of things 
need to be done?
    Mr. Dodaro. Yeah, yeah, we do a strategic plan for serving 
the Congress and the country looking ahead on a 5-year period 
of what work we think makes sense in consultation with the 
Congress, outside experts across government. We receive 
requests from committee chairs and ranking members and have 
requirements to do studies in law or in conference or committee 
reports. Last year we had about 900 requests from the Congress. 
I'd say about 75 percent of those were things that we thought 
were good ideas for us to work on. So it was a collaborative 
process between GAO and the Congress.
    Mr. Walker. Thank you for addressing that. If there's--if 
you've already--I apologize for the redundancy. Specific 
question I want to talk to you about. Thirty two years ago 
Congress required the establishment of criteria I believe it 
was 11 cancer hospitals.
    Mr. Dodaro. Yes.
    Mr. Walker. My question was, I think it was--they were 
exempted from a predetermined Medicare payment.
    Mr. Dodaro. That's correct.
    Mr. Walker. How does care at these exempted cancer 
hospitals compare to other hospitals providing similar 
services? Can you address that?
    Mr. Dodaro. Yes. I'll ask Ms. Cindy Bascetta who's our--
head of our healthcare service to address that issue.
    Ms. Bascetta. We were concerned about the issue because 
when the prospective payment system was put in place many years 
ago, the cancer hospitals were designated as exempt because at 
the time the belief was that the payment system wouldn't 
adequately reflect their costs. It hasn't been revisited since 
then, and we believe now, based on an analysis that we did that 
compared the populations that were cared for in regular 
teaching hospitals that are paid under the prospective system 
and the PCH hospitals, that in fact there aren't differences in 
outcomes and that the care is comparable. So we believe based 
on that analysis that the savings to the--up to about $500 
million.
    Mr. Walker. Okay you just took my second question. Are you 
say--are you feel good about estimating a number there----
    Ms. Bascetta. Yes.
    Mr. Walker. --that we could save?
    Ms. Bascetta. Absolutely.
    Mr. Walker. And you said around?
    Ms. Bascetta. It's $156 million on the inpatient side and 
about $303 million on the outpatient side.
    Mr. Dodaro. It's about $500 million a year could be saved.
    Mr. Walker. Okay. Thank you. I appreciate that.
    Mr. Chairman, I yield back.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Michigan, Mr. 
Walberg.
    Mr. Walberg. Thank you, Mr. Chairman. And thank you to the 
panel for being here.
    And Mr. Dodaro, I wish you could have talked about 
comprehensive tax reform a little longer. And as I sit here and 
listen, I am constantly brought back to the fact that maybe 
just per chance we've let the Federal Government get too large, 
but I appreciate the work you're doing in looking into what's 
going on.
    Relative to FOIA review process, DHS has the largest 
backlog of any Federal agency. How does the duplicative 
processing like with USCIS and ICE where USCIS process certain 
requests, and then sends requests to ICE which processes them a 
second time? They had a different working relationship earlier 
on. How does that duplicative processing of requests contribute 
to the backlog?
    Mr. Dodaro. It's a great contributor. I'll ask Mr. Powner 
to explain how--why that happens, but we think it can be 
streamlined.
    Mr. Powner. So they have one of the largest backlogs of 
FOIA requests. So if you start with that, you want to 
streamline operations. So if you look at what USCIS does at 
CBP, they have an agreement where they don't duplicate efforts. 
And what we looked at we saw a situation where ICE and USCIS 
they were duplicating. So our recommendation was really to 
follow that memorandum of agreement that USCIS and CBP has in 
place, and that would actually help the backlog.
    Mr. Dodaro. Yeah. So you have three different components of 
the Department of Health--or Homeland Security. Two of the 
components have an agreement. They don't duplicate. The third 
component doesn't have the agreement with ICE. So you have 
inconsistencies even within the department.
    Mr. Walberg. Why weren't they able to come to an agreement 
like they had in the past? What kept them from that?
    Mr. Powner. I think a lot of it's just a history of how 
they've done it in the past and culture and bureaucracy on how 
they process that information. It's their information so they 
want to process it instead of letting another organization do 
it. That's what CBP does with USCIS is they say it's okay for 
the USCIS to process the FOIA requests using our data, where 
ICE doesn't have that level of comfort.
    Mr. Walberg. Do we see any movement that direction?
    Mr. Powner. Not to date. Not to date. That was a recent 
report that we issued, but we're continuing to----
    Mr. Dodaro. One of the things I have mentioned I'm sending 
letters to the agency heads. This is one area I want to point 
out. And I have frequent conversations, particularly with the 
deputy for the Department of Homeland Security. So I'm going to 
mention it to them too. See if we can get some movement.
    Mr. Walberg. Okay. Ms. Cobert, in GAO's 2011 report found 
that tracking undisbursed balances and expired grant accounts 
could facilitate the reallocation of scarce resources or 
returning funding to the Treasury. Per GAO's recommendation, 
OMB has instructed executive departments and agencies to take 
action to address undisbursed balances and expired grant 
accounts.
    GAO's 2011 report highlighted issues related to undisbursed 
balances and expired grant accounts. OMB implemented GAO's 
recommendation and the action is considered fully addressed. 
What made this instance different from the other cases that OMB 
has not yet addressed?
    Ms. Cobert. Thank you for describing that particular 
instance. It's an example of the many places where we work 
closely with GAO on trying to take what they learn from their 
work and work together both within OMB and across agencies to 
put things into action.
    The recommendations there were very clear, and we were able 
to pursue that through our normal oversight of grants, which is 
done through the Office of Federal Financial Management. 
Actually a part of my responsibilities at OMB.
    We are also on a number of other areas working to implement 
the GAO reports, whether it's on elements around strategic 
sourcing, portfolios that we discussed earlier, a data center 
consolidation. In our mind, the input we get from GAO is 
extremely valuable in helping us set our agenda for working 
together with agencies. And, in fact, in particular, for 
example, on things like the high-risk list. Gene and I have 
meetings together with the relevant agencies. We sort of work 
our way through the high-risk list on a monthly basis. Because 
we think it's important to take these things seriously.
    Mr. Walberg. So there is follow-up between----
    Ms. Cobert. Absolutely.
    Mr. Walberg. Are agencies responding?
    Ms. Cobert. Agencies are responding. You can see that in 
the number of reports, of the number of action items that have 
been addressed fully or partially. Some of those are through 
OMB actions. Some of those are through agency actions, and 
where they haven't been addressed, we're continuing to try and 
understand what's getting in the way. Sometimes they have--they 
may have the same diagnosis of a problem as GAO, a slightly 
different view on what the right solution is, and that's where 
we enter into an active dialogue to say what's the best way to 
try and get at the root problem we're trying to solve.
    Mr. Walberg. Well, I wish you success, and----
    Ms. Cobert. Thank you.
    Mr. Walberg. --I yield back.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Georgia, Mr. 
Carter.
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here. This is very important and very informative, 
and we appreciate it very much.
    Mr. Dodaro, I want to speak--I know that the previous 
Congressman questioned you about DHS, but I'd like to go 
further into that, and it's important to me for two reasons. 
First of all, I'm a member of the Homeland Security Committee. 
So it's important for that reason, but, secondly, and perhaps 
most importantly, I have a bill, one of my first bills that 
I've introduced, House Resolution 1615, that deals with this. 
As you know, the Department of Homeland Security has more FOIA 
requests than any other department, and not only that, but 
right now the backlog of all Federal FOIA requests, the 
Department of Homeland Security has more than half, which is 
really alarming. Now, again, I want to ask you because my 
legislation really calls for the elimination of duplication, 
and I want to ask you again about USCIS and then ICE and the 
duplication there. Is there indeed duplication in that process? 
Are they both--are they both processing the FOIA requests----
    Mr. Dodaro. Yes.
    Mr. Carter.--separately?
    Mr. Dodaro. Yes.
    Mr. Carter. So your office acknowledges and believes that 
they are indeed doing that?
    Ms. Dodaro. Yes. Yes. And that's our recommendation is to 
eliminate that duplication.
    Mr. Carter. Okay. Well, let me ask you. It's my 
understanding that--that Customs and Border Protection and 
USCIS have an agreement in which they--they work together on 
these FOIA requests, yet--yet ICE does not have that same 
agreement?
    Mr. Powner. Correct. And our recommendation is to replicate 
that agreement that those two organizations have----
    Mr. Carter. Did they give a reason why they don't have that 
agreement? Is there----
    Mr. Powner. No. There was some back and forth about was it 
actually duplicative or not and some hand wringing there, but 
the issue here is they both process some of the same FOIA 
requests. There is duplication, there's an opportunity to 
reduce it by having that agreement. This is a pretty 
straightforward issue. This is really a simple one.
    Mr. Carter. Okay. It's my understanding that at one point 
they did have an agreement----
    Mr. Powner. They did at one time.
    Mr. Carter. --and it expired.
    Mr. Powner. It expired, yes, and they have not revisited 
that. So this is very straightforward.
    Mr. Carter. I'm----
    Mr. Dodaro. It's hard to explain. It's some type of 
behavior that happens at times within large bureaucracies, and 
I don't profess to give you a really good answer as to exactly 
why----
    Mr. Meadows. Can you turn your mic on?
    Mr. Dodaro. I'm sorry. Excuse me.
    What I was saying is, you know, it's sometimes hard to 
explain behavior in large bureaucracies, and I don't profess to 
try to explain exactly why it is what it is. All we know is 
that it's not correct the way it is. It's contributing to the 
backlog and needs to be changed.
    Mr. Dodaro. So if your bill can help in that regard, I 
think it would be a terrific idea.
    Mr. Carter. Well, certainly we want to push this issue 
because it would appear to me that not only would it help with 
the backlog, obviously, but it would be less expensive to do it 
that way.
    Mr. Dodaro. That's correct.
    Mr. Carter. You know, since I've been up here all of three 
and a half months, common sense, I'm not sure that----
    Mr. Dodaro. Sometimes it's----
    Mr. Carter. --I have figured out where it's hiding at.
    Mr. Dodaro. Sometimes it's not so common.
    Mr. Carter. Well, you're exactly right.
    But, again, it's my understanding that--that these two 
subgroups, if you will, suborganizations, of Homeland Security 
have established a study committee of sorts to work through 
this.
    Are you aware of that? Are they working on it? What's the 
status of it currently?
    Mr. Powner. I'm not--I'll have to get you a status for the 
record. I'm not aware of the working group, so we'll get back 
to you on that.
    Mr. Carter. Okay. Well, if you could, that would be very 
important because----
    Mr. Powner. Sure.
    Mr. Carter. --obviously this is a bill that's very 
important to me and, I think, should be very important to all 
of us to get rid of this backlog. Again, over half of the 
Federal FOIA requests that are in backlog now are in Homeland 
Security. No excuse for that whatsoever and no excuse for the 
duplication. So thank you for your efforts and, please, watch 
this bill very, very closely.
    Mr. Dodaro. We will.
    Mr. Carter. Thank you.
    Mr. Chairman, I yield the remainder of my time.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Florida, Mr. Mica.
    Mr. Mica. Thank you, Chairman Meadows.
    And, Mr. Dodaro, welcome. Ms. Cobert.
    One of the things we've worked on, in fact, worked closely 
with Mr. Meadows, is my interest in fulfilling the findings we 
did in the reports some years ago. The title of it was the 
Federal Government Must Stop Sitting On Its Assets. And we 
looked at properties as one part of it and we've actually taken 
that on. I think you've endured a few of our hearings. We had 
some pretty good successes when you drive down Pennsylvania 
Avenue and you see the old post office building that was 
costing us $6 to $8 million a year. It will soon be a five star 
hotel and a first class commercial center, probably employing a 
thousand people and paying us--I think the deal we cut was 
about a quarter of a million a month, plus a percentage of the 
gross. Not too bad. And other properties. But unfortunately the 
successes are fairly limited.
    DOD, for example, under the information I've gotten from 
staff and, I think, from you all, says that DOD has 560,000 
facilities worldwide and, as of September, only had a 
utilization rate of 53 percent. Is that correct?
    Who is going to----
    Mr. Dodaro. Yeah.
    Mr. Mica. Identify yourself.
    Ms. Berrick. Okay. Just to clarify that. There was only 
data in DOD's real property database for 53 percent of the 
facilities. So basically----
    Mr. Mica. Well, that's all you could confirm.
    Ms. Berrick. Right. And the----
    Mr. Mica. Yeah. Because we found in the past--and I think 
some of your work, too--it was, one, agencies didn't know what 
they had. They didn't know the conditions. Sometimes they 
didn't--their inventory was--was never updated and then whether 
it was utilized was a totally different question.
    Mr. Dodaro. Yeah. That's correct, Congressman.
    Mr. Mica. Okay. How----
    Mr. Dodaro. And I found that--yeah.
    Mr. Mica. But the other thing, too, is I think the GAO has 
recommended that OMB develop a national strategy that could 
provide a pathway to manage excess and utilize--access 
underutilized properties. You recommended this?
    Mr. Dodaro. Yes. Yes.
    Mr. Mica. And how are they doing on it? They've got it all 
done? They've got a good plan?
    Mr. Dodaro. Well, they've just produced a strategy document 
a couple of weeks ago that toward the end of----
    Mr. Mica. A couple weeks ago?
    Mr. Dodaro. Right, right. And we looked at that. We think 
it's a first good step.
    Mr. Mica. Okay. You recommended that, as I recall, back in 
June of 2012. So that's probably lightning rocket speed to get 
it last week, so----
    All right. OMB. I've got a--and DOD. I've got a specific 
case in Florida. About a year or so ago, I dragged one of the 
subcommittees down. We have--you know, when you have public 
assets and we're sitting on them, you've got to look in your 
own backyard. And at Cape Kennedy, I have 144,000 acres that 
NASA has. They've been out of some of that business for 5 years 
now. On that 500 buildings, half of them are vacant or 
underutilized. 144,000 acres, that's six times the size of 
Manhattan.
    Then next to it is the Air Force property which is 16,000 
acres. I'm not talking about Patrick. I'm talking next to it. 
So I held a hearing, and we had--people laid out, the port 
director came over and said, if I could get 50 to 200 acres 
more right adjacent, which the Air Force controls, I could 
create 5,000 jobs by making a cargo container port out of it.
    Last week--and this guy is gone. Carter is gone. He said 
``common sense.'' He's been here 3 months. I've been here 23 
years, Carter, and you're not here to hear this, but it doesn't 
prevail. Last week they told him that they couldn't--we'll send 
him a tape, videotape.
    But common sense was--would be they want less than 200 
acres of 16,000, and last week they basically rejected a sole 
source to the port. The port only happens to be the only entity 
in Florida that's allowed to do port work at this site at Port 
Canaveral and they couldn't give them a sole source.
    OMB, DOD, somebody, can anybody--does anyone know--can you 
look into sole sourcing?
    Ms. Cobert. I'd be happy to.
    Mr. Mica. Could you review this and tell me what the--what 
idiotic determination would prohibit--I get a few more minutes 
because he yielded back 41 seconds before he exited.
    Mr. Meadows. The gentleman is recognized for another 
minute.
    Ms. Cobert. I'd be happy to look into that and get back to 
you around that.
    Mr. Mica. No. I mean, this is nut cases. We did the hearing 
down there. We got them to--the port gave us unsolicited 
proposal, and they came back and the Navy is a sublease to 
that. They'll move them and pay for it. They need slight 
reconfiguration, and they rejected it last week.
    I just need to know the impediment because there's a way 
to--there's a way to do this. You have to be a persistent 
bastard, first of all, and then you've got to find a way to 
make this work.
    Five thousand jobs, I don't know, that wouldn't be 
important in your district, would it, Mr. Meadows?
    Mr. Meadows. Indeed it would.
    Mr. Mica. Okay. And he was telling the whole truth and 
nothing but the truth.
    Well, if you could answer that, you would make my day.
    Looking at that one case, I'll send you--we'll give you a 
copy. It doesn't necessarily have to be part of the record, but 
it's such a struggle.
    We are working with Mr. Chaffetz, with the committee, we 
had several bills for disposal of property and are trying to 
straighten out that process. Usually we find the agencies are 
not able to make decisions. They sit on it. No one in DOD could 
have an initiative. No one at GSA could have an initiative. No 
one at--almost any agency. I've got a list of VA properties. It 
would go from here to the--vacant properties to the end of the 
dais there's so many. But we do need a mechanism to better 
utilize valuable public assets.
    Thank you, and I yield back two seconds. Thank you.
    Mr. Meadows. I thank the gentleman from Florida.
    I'm going to close this out without going into a lot of 
additional questions. You've been very gracious, both of you, 
with your time.
    I do want to say, Mr. Dodaro, thank you so much for your 
leadership in a nonpartisan way, and a real thank you to your 
entire staff for the work that you do. It gives us the tools to 
work with, not only here, but at OMB and--and so we just want 
to compliment you on a job well-done.
    Obviously, there are a number of areas that we would like 
to address, and so I would ask your staff to work with us, if 
they would. On those ones that require legislative directives, 
if you could put those in a list with a dollar amount, 
everybody is looking for offsets.
    Mr. Dodaro. Right.
    Mr. Meadows. And so I think that that would be very good. 
And we've heard some today.
    Ms. Cobert, I want to follow up. Mr. Mica talked about this 
whole aspect. I've got a real estate background. And based on 
the way that we manage our real estate portfolio, it's--one, 
it's costing us. It's not just the assets that are sitting 
there. It's the management of those assets that become real 
dollars. I know that you've made progress. I know that you've 
had some changes at OMB, and I gave some time from the last 
Congress. I have a long memory, though. And the year timeframe 
that I gave is coming up this July. The progress of which we're 
making on that particular issue, it would take 234 years to 
dispose of all the property that we have. That's longer than 
our country has been in existence, and so we could do better 
than that. And I say that only to say that we're going to 
continue to look at that, even if it is coming up with a 
creative way to make sure that, when you dispose of the 
property or GSA disposes of it, if it goes back to the agency, 
you know, it's better that we deal with it than just to let it 
sit there. Would you agree?
    Ms. Cobert. We'd be happy to continue the dialogue with you 
about practical ways to move the ball forward. We know there's 
things there that--opportunities that can be captured, and we'd 
be very interested in continuing the conversation with you and 
others about how to move the ball forward faster.
    Mr. Meadows. So I'm going to--I'm going to ask this last 
request and that has to do with really what we know is tax 
expenditures and the way that they go into the budget and are 
accounted for.
    Do I have both of your commitments to work very closely 
together so that we can really fine tune that number from a 
budget standpoint to know what it's costing us in terms of 
credits, tax deductions, et cetera, so that we can make better 
informed decisions?
    I see a nodding yes, so I will assume that's a yes.
    Ms. Cobert. Our team will tell you that I'm a data geek, so 
better data is always helpful.
    Mr. Meadows. Okay. Well, I--we're going to get along just 
fine. So thank you so much.
    Thank the witnesses. I want to thank the staff here for all 
their hard work. And with that, if there's no further business, 
without objection, the committee stands adjourned.
    [Whereupon, at 4:06 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
